<html>
<title> - TRANSFERRING GUANTANAMO BAY DETAINEES TO THE HOMELAND: IMPLICATIONS FOR STATES AND LOCAL COMMUNITIES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





TRANSFERRING GUANTANAMO BAY DETAINEES TO THE HOMELAND: IMPLICATIONS FOR 
                      STATES AND LOCAL COMMUNITIES

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                             OVERSIGHT AND
                         MANAGEMENT EFFICIENCY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 28, 2016

                               __________

                           Serial No. 114-66

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-759 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                                        
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                  Scott Perry, Pennsylvania, Chairman
Jeff Duncan, South Carolina          Bonnie Watson Coleman, New Jersey
Curt Clawson, Florida                Cedric L. Richmond, Louisiana
Earl L. ``Buddy'' Carter, Georgia    Norma J. Torres, California
Barry Loudermilk, Georgia            Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Ryan Consaul, Subcommittee Staff Director
                   John Dickhaus, Subcommittee Clerk
         Cedric C. Haynes, Minority Subcommittee Staff Director
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Scott Perry, a Representative in Congress From the 
  State of Pennsylvania, and Chairman, Subcommittee on Oversight 
  and Management Efficiency:
  Oral Statement.................................................     1
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     9

                               WITNESSES
                                Panel I

Honorable Nikki R. Haley, Governor, State of South Carolina:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12

                                Panel II

Mr. Michael J. Bouchard, Sheriff of Oakland County, Michigan 
  Oakland County Sheriff's Office, Testifying on Behalf of the 
  Major County Sheriffs' Association:
  Oral Statement.................................................    30
  Prepared Statement.............................................    32
Mr. Ken Gude, Senior Fellow, National Security, Center for 
  American Progress:
  Oral Statement.................................................    35
  Prepared Statement.............................................    37
Mr. Todd Thompson, County Attorney, Leavenworth County Attorney's 
  Office, Leavenworth County, Kansas:
  Oral Statement.................................................    40
  Prepared Statement.............................................    42

                             FOR THE RECORD

The Honorable Scott Perry, a Representative in Congress From the 
  State of Pennsylvania, and Chairman, Subcommittee on Oversight 
  and Management Efficiency:
  Letter From the Major County Sheriffs' Association.............     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Statement of Major General Michael R. Lehnert, USMC (Ret.).....     5
  Statement of James A. Gondles, Jr., Executive Director, 
    American Correctional Association............................     7
The Honorable Jeff Duncan, a Representative in Congress From the 
  State of South Carolina:
  Letter.........................................................    18

                                APPENDIX

Questions From Chairman Scott Perry for Michael J. Bouchard......    55

 
TRANSFERRING GUANTANAMO BAY DETAINEES TO THE HOMELAND: IMPLICATIONS FOR 
                      STATES AND LOCAL COMMUNITIES

                              ----------                              


                        Thursday, April 28, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
                             Subcommittee on Oversight and 
                                     Management Efficiency,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 p.m., in 
Room 311, Cannon House Office Building, Hon. Scott Perry 
[Chairman of the subcommittee] presiding.
    Present: Representatives Perry, Duncan, Clawson, Carter, 
Loudermilk, Richmond, and Thompson (ex officio).
    Also present: Representatives Katko and Jenkins.
    Mr. Perry. The Committee on Homeland Security's 
Subcommittee on Oversight and Management Efficiency will come 
to order. The purpose of this hearing is to receive testimony 
on State and local perspectives regarding the impact of 
transferring Guantanamo Bay detainees to the homeland.
    The Chair now recognizes himself for an opening statement.
    In January 2009, President Obama signed Executive Order 
13492, which ordered the closure of the detention facilities at 
Guantanamo Bay Naval Base in Cuba. Over 7 years later, in 
February 2016, the administration submitted its plan to close 
the detention facility. Although the plan is devoid of 
specifics, the administration has made clear that it intends to 
identify a location within the United States to detain an 
unspecified number of Guantanamo prisoners.
    In a hearing before the House Foreign Affairs Committee 
last month, a senior Defense Department official touted the 
plan as representing the collective best judgment of the 
administration's top military and civilian leaders and as the 
result of close collaboration across numerous Federal agencies.
    I just must break from the script and comment on that a 
little bit: The collective best judgment of the 
administration's top military and civilian leaders--and with 
all due respect, military leaders that serve in the 
administration are bound to agree with the Commander-in-Chief. 
Right? The old saying is: ``Ours is to do and die; ours is not 
to question why.'' So their credibility in this regard, 
unfortunately, has to be questioned on those bases, if nothing 
else. Of course, the civilian leaders looking to curry favor 
with the administration are in the same position.
    We want to look at the solid unbiased facts, not the 
opinions or the collective best judgment.
    Moving on, it is time to set the record straight. The 
administration has failed to seek the very necessary input from 
State and local law enforcement on its plan. The reason is 
simple: Law enforcement professionals strongly oppose any plan 
that could endanger the citizens they are sworn to protect. 
Last month, the Major County Sheriffs' Association, which 
represents sheriffs' offices from our Nation's largest 
counties, wrote the President to express their opposition to 
the plan. I ask that this letter be included in the record.
    Without objection, it is so ordered.
    [The information follows:]
           Letter From the Major County Sheriffs' Association
                                    March 30, 2016.
President Barack Obama,
1600 Pennsylvania Ave NW, Washington, DC 20500.
    Dear President Obama: The Major County Sheriffs' Association (MCSA) 
is an association of elected sheriffs representing our nation's largest 
counties with populations of 500,000 people or more serving over 100 
million Americans. As constitutionally-elected law enforcement 
officials tasked with ensuring public safety, the MCSA remains 
adamantly opposed to your continued effort to close the U.S. detention 
facility on the Guantanamo Bay Naval Base.
    More so now than ever before, our nation is facing increasingly 
sophisticated threats from abroad and from within. Given the evolution 
of the threat environment, state and local law enforcement--in 
conjunction with our federal partners--are at the forefront of keeping 
our homeland secure. It goes without question that any effort to 
transfer Gitmo detainees to U.S. soil has immense national security 
implications.
    Your latest proposal to Congress to close Gitmo and transfer 
detainees failed to acknowledge the ``Summary of the Reengagement of 
Detainees Formerly Held at Guantanamo Bay, Cuba'' issued by the Office 
of the Director of National Intelligence (ODNI). In the September 2015 
summary, it was reported that thirty percent of former Guantanamo 
prisoners are confirmed or suspected of reengaging in terrorism. 
Additionally, just a few months ago, Spanish and Moroccan authorities 
arrested four suspected ISIS affiliates--including one described as a 
former Gitmo detainee.
    As stewards of the rule of law, we respectfully remind you that you 
recently signed two separate pieces of legislation into law that 
explicitly bar the use of funds to transfer, release or assist in the 
transfer or release of Gitmo detainees to or within the continental 
United States. Detainees, deemed too dangerous to release, should not 
be brought to the homeland where they will pose a threat to the local 
communities we serve.
    With an increased threat environment, law enforcement has 
continually been tasked to do more with less. Cost implications coupled 
with a heightened security environment is simply unsustainable. In an 
era of deep budget cuts and lack of federal funding, state and local 
law enforcement does not have the necessary funds, and most recently 
the necessary lifesaving equipment, to adequately address the national 
security implications associated with Gitmo detainees being housed in 
U.S. facilities. Some have lauded the closure of Gitmo as a cost-saving 
measure, but that is most assuredly short-sighted--both from a national 
security and taxpayer perspective.
    As the only elected law enforcement officials in America, we are 
committed to the protection of our communities and believe the closing 
of Guantanamo Bay poses an unnecessary threat to the safety of the 
citizens we are sworn to protect.
            Very Respectfully,
                                           Sandra Hutchens,
                     President, Major County Sheriffs' Association,
                               Sheriff-Coroner, Orange County (CA).
                                       Michael J. Bouchard,
        Vice President--Government Affairs, Major County Sheriffs' 
                                                       Association,
                                      Sheriff, Oakland County (MI).

    Mr. Perry. The letter states that detainees deemed too 
dangerous to release should not be brought to the homeland 
where they will pose a threat to the local communities we 
serve. Why would the administration ignore the advice of our 
State and local law enforcement professionals? Just because 
their advice doesn't fit the administration's political 
narrative doesn't mean their voice shouldn't be heard.
    The fact is State and local law enforcement have numerous 
concerns with the implications of bringing the world's most 
dangerous terrorists to our homeland. Law-enforcement officials 
have serious questions which the administration's plan either 
failed to consider or simply did not answer. For example, what 
if the base requires evacuation? What if detainees require 
transportation to medical facilities? What additional resources 
are needed for such transfers? I will add, what about court 
facilities? I happened to visit Guantanamo Bay, where the 
taxpayers paid dearly for a very specific court facility that 
handled these very dangerous people in a Classified setting. 
Where is that going to happen? Who is going to be paying for 
that yet again?
    The administration has argued that taxpayers could save 
tens of millions of dollars by transferring these terrorists to 
the homeland. I would say, which taxpayers? Right now, all of 
us pay for Guantanamo Bay, but if you move them, State by 
State, facility by facility, it will be the taxpayers in those 
local locations that will bear the entire burden. Did they 
calculate the cost to States and local communities? Cash-
strapped States and localities will face additional costs due 
to the heightened threat environment brought about by this 
decision, and taxpayers will foot the bill. This site likely 
would become a magnet for protest, as well further straining 
the resources of the locals.
    We also have legal questions such as whether these 
terrorists could be eligible for certain forms of relief from 
removal, release from immigration detention, or constitutional 
rights. The Department of Justice believes that existing 
statutory safeguards are sufficient, and courts historically 
have ruled that detainees held under the laws of war who are 
brought to the United States are outside the reach of 
immigration laws. But make no mistake: Their lawyers will test 
every avenue and slow justice even further.
    Another major concern is that the facility would become a 
terrorist target itself. Consider the propaganda value for ISIS 
if it successfully sprang a hardened GTMO terrorist on American 
soil. Anyone who thinks that this is impossible is suffering 
from, as the 
9/11 Commission puts it, ``a failure of imagination.'' With 
about 30 percent of released detainees having been confirmed or 
suspected of rejoining the fight, GTMO detainees clearly remain 
dangerous and want to kill Americans.
    The facility also could become an attractive target for 
lone wolves, and other radical Islamic extremists may be 
inspired to perform jihad in the homeland. The American people 
do not want GTMO terrorists detained in their communities, 
their neighborhoods, or down the street from their children's 
school.
    Fortunately, Congress passed legislation that prohibits 
transferring GTMO detainees to the homeland, and the President 
signed it. However, it is still moving forward with its 
legacy--the President, that is, and the administration--is 
still moving forward with his legacy-driven agenda, which 
includes closing Guantanamo Bay. And it is different--it is 
very different--from the National security agenda that I think 
he should be focused on. Despite the will of the American 
people, he is moving forward with this agenda. States and 
localities must prepare for the possibility that this 
administration will seek to detain these terrorists in our 
community despite the will of the American people.
    Finally, I thank Governor Haley for appearing before the 
subcommittee today, leaving her great State and coming to 
Washington, DC. As I stated earlier, receiving input from 
States and local communities regarding these transfers is 
critical. That Governor Haley made the trip to Washington today 
underscores that importance.
    Thank you again for being here today, Governor. I look 
forward to your testimony.
    [The statement of Chairman Perry follows:]
                   Statement of Chairman Scott Perry
                             April 28, 2016
    In January 2009, President Obama signed Executive Order 13492, 
which ordered the closure of the detention facilities at the Guantanamo 
Bay Naval Base in Cuba. Over 7 years later--in February 2016--the 
administration submitted its plan to close the detention facility. 
Although the plan is devoid of specifics, the administration has made 
clear that it intends to identify a location within the United States 
to detain an unspecified number of Gitmo prisoners. In a hearing before 
the House Foreign Affairs Committee last month, a senior Defense 
Department official touted that the plan, ``represents the collective 
best judgment of the administration's top military and civilian 
leaders'' and is the result of close collaboration across numerous 
Federal agencies.
    But it's time to set the record straight: The administration has 
failed to seek very necessary input from State and local law 
enforcement on its plan. The reason is simple: Law enforcement 
professionals strongly oppose any plan that could endanger the citizens 
they're sworn to protect. Last month, the Major County Sheriff's 
Association, which represents sheriff's offices from our Nation's 
largest counties, wrote the President to express their opposition to 
the plan. I ask that this letter be included in the record. Without 
objection, so ordered. The letter states that, ``detainees, deemed too 
dangerous to release, should not be brought to the homeland where they 
will pose a threat to the local communities we serve.''
    Why would the administration ignore the advice of our State and 
local law enforcement professionals? Just because their advice doesn't 
fit the administration's political narrative doesn't mean their voice 
shouldn't be heard. The fact is, State and local law enforcement have 
numerous concerns with the implications of bringing the world's most 
dangerous terrorists to our homeland. Law enforcement officials have 
serious questions, which the administration's plan either failed to 
consider or simply didn't answer. For example, what if the base 
requires evacuation; what if detainees require transportation to 
medical facilities; and what additional resources are needed for such 
transfers?
    The administration has argued that taxpayers could save tens of 
millions of dollars by transferring these terrorists to the homeland. 
But did they calculate the costs to States and local communities? Cash-
strapped States and localities will face additional costs due to the 
heightened threat environment brought about by this decision--and 
taxpayers will foot the bill. The site likely would become a magnet for 
protests as well, further straining the resources of the locals.
    We also have legal questions--such as whether these terrorists 
could be eligible for certain forms of relief from removal, release 
from immigration detention, or Constitutional rights. The Department of 
Justice believes that existing statutory safeguards are sufficient and 
courts historically have ruled that detainees held under the laws of 
war who are brought to the United States are outside the reach of 
immigration laws. But make no mistake their lawyers will test every 
avenue, and slow justice even further.
    Another major concern is that the facility would become a terrorist 
target in itself. Consider the propaganda value for ISIS if it 
successfully sprang a hardened Gitmo terrorist on American soil. Anyone 
who thinks this is impossible is suffering from, as the 9/11 Commission 
put it, ``a failure of imagination.'' With about 30 percent of released 
detainees having been confirmed or suspected of rejoining the fight, 
Gitmo detainees clearly remain dangerous and want to kill Americans. 
The facility also could become an attractive target for lone wolves, 
and other radical Islamist extremists may be inspired to perform jihad 
in the homeland.
    The American people do not want Gitmo terrorists detained in their 
communities, their neighborhoods, or down the street from their 
children's school. Fortunately, Congress passed legislation that 
prohibits transferring Gitmo detainees to the homeland--and the 
President signed it. However, he's still moving forward with his 
legacy-driven agenda which includes closing Guantanamo--despite the 
will of the American people. States and localities must prepare for the 
possibility that this administration will seek to detain these 
terrorists in our communities.
    Finally, I thank Governor Haley for appearing before the 
subcommittee today. As I stated earlier, receiving input from States 
and local communities regarding these transfers is critical; that 
Governor Haley made the trip to Washington today underscores that 
importance. Thank you again for being here today, Governor; I look 
forward to your testimony.

    Mr. Perry. The Chair now recognizes the Ranking Minority 
Member of the full committee, the gentleman from Mississippi, 
Mr. Thompson, for his statement.
    Mr. Thompson of Mississippi. Thank you, Chairman Perry for 
holding today's hearing.
    Mr. Chairman, I would like to request unanimous consent to 
introduce statements into the record from retired Major General 
Michael Lehnert, who commanded the joint task force that stood 
up the detention facilities at Guantanamo Bay, and James 
Gondles, executive director of the American Correctional 
Association.
    Mr. Perry. Without objection, so ordered.
    [The information follows:]
       Statement of Major General Michael R. Lehnert, USMC (Ret.)
                             April 28, 2016
    Chairman Perry, Ranking Member Watson Coleman, Members of the 
committee, thank you for the opportunity to share my views with you.
    The goal of terrorism is to change behavior and to make us live in 
fear. On 
9/11 America changed.
    In September 2001 I was a new brigadier general at Camp Lejeune, 
North Carolina commanding an 8,000 man force of Marines and Sailors. 
America made the decision to go to war in Afghanistan, and some of my 
troops were deployed early into the fight. And as we began to take 
captives, the question of what to do with them became more imperative. 
Many in the administration believed that these individuals represented 
an intelligence treasure trove.
    The decision to send me and my command to Guantanamo employed a 
strange logic. Guantanamo has been used for decades by administrations 
from both parties as an extra-legal zone to buy time during crises. It 
had been the site for several Cuban and Haitian migrant camps and in 
fact I'd commanded the Guantanamo camps in 1995 during the Clinton era 
when we had 18,000 Cubans and Haitians there on the ground. Though the 
U.S. Army is doctrinally responsible for prisoner of war camps, the 
Marines' ability to deploy rapidly coupled with my past experience 
probably drove the initial decision. That there is a vast difference 
between an economic migrant and a prisoner of war seemed lost on the 
policy makers in Washington.
    So in early January 2002 I received a deployment order to form a 
Joint Task Force, get to Cuba and build the first 100 cells in 96 hours 
and be prepared to receive prisoners of war (that's what we called them 
then). That we created a detention facility in 87 hours said a great 
deal about the young troops I led but it also drove a series of 
unfortunate early decisions. Many of those administration decisions 
involved the application of both U.S. and International law. I'm not a 
lawyer but it is very clear that when we decided to forgo generations 
of legal precedent and start all over, bad things happen.
    As enemy prisoners of war began to arrive, even their titles began 
to change. They were not enemy combatants. I was told that I was to 
``be guided by but not required to follow the Geneva Conventions.'' 
When I asked my lawyers what that meant, I was told ``pretty much 
whatever they want it to mean.'' Though we were told that these were 
``worst of the worst'' many detainees appeared to have been sent based 
upon their need for medical or psychiatric attention. Some had poor 
excuses for being caught in a war zone and many were there because we 
were paying bounties for terrorists. We did not understand the Afghan 
tribal system. For a tribal leader what better way to enrich yourself 
while resolving old grudges than to finger a neighbor who was your 
enemy regardless of his support for either al-Qaeda or the Taliban?
    It took time to recognize our early storing process was flawed. 
Almost all who arrived said they were simply ``studying in a 
madrassa.'' Some were students. Others were truly enemy combatants. Our 
failure to apply Article V hearings at the point of capture as required 
by the Geneva Conventions was beginning to result in detainees being 
sent who shouldn't have been sent.
    I'd been sent down for 60 days with instructions to turn the 
command over to the Army once they were able to get down to GTMO. I was 
there nearly 100 days when I was finally relieved. By this time, it was 
becoming more apparent that GTMO was housing a number of prisoners who 
were either noncombatants or simply low-level fighters.
    Perhaps the best proof that we sent the wrong people to Guantanamo 
is that of the 780 who have ever been in Guantanamo, 647 were released 
back to their country of origin or resettled without action.
    So why should we close Guantanamo?
    First and foremost because Guantanamo's continued existence hurts 
us in our prosecution of the fight against terrorists. It feeds into 
the narrative that the United States is not a Nation of laws nor one 
that respects human rights. Military commissions create a facade of 
justice. There are currently only 3 detainees at Guantanamo who were 
convicted by military commissions though they have been in operation 
for over 8 years. Four previous convictions by commissions were 
overturned by the U.S. Supreme Court. U.S. Federal Courts have been 
much more successful in getting convictions of terrorists, and those 
convictions have held up under appeal. Our reliance upon military 
commissions, the absence of precedent, and their inability to resolve 
these cases make a mockery of our claim that we are a Nation of laws.
    Secondly, Guantanamo's extra-legal status is inconsistent with our 
values as Americans. When I was first commissioned and every subsequent 
promotion thereafter I took the oath of office to support and defend 
the Constitution of the United States. Unlike the enlisted oath, 
officers don't swear allegiance to the President or to their chain of 
command. The authors of the officers' oath knew exactly what they were 
doing. They recognized that the Constitution is the seminal document 
that governs who we are as a people and that commissioned officers must 
have the wisdom to align their actions to the Constitution. To have a 
place on earth where the Constitution does not apply is simply un-
American. It also begs the question that if it means nothing in 
Guantanamo, does our Constitution and the requirement to live by it 
stop at the water's edge? When we fail to live by that remarkable 
document it diminishes us as a people.
    Thirdly, Guantanamo and all locations where so-called enhanced 
interrogation techniques were practiced are a blight on our honor and 
put our citizens at greater risk. It's no accident that many captives 
executed by terrorists were filmed being killed wearing orange jump 
suits. We are feeding the terrorist narrative not creating our own. 
Torture and its euphemism ``enhanced interrogation techniques'' don't 
make us safer. They don't deliver useful intelligence, and these 
practices are beneath us. When Senator McCain stood on the floor of the 
Senate on December 9, 2014, and delivered his opposition to torture, it 
was his finest hour in a lifetime of service. Despite significant 
pushback from many in his own party, he is the 1 elected member of our 
Government with absolute credibility on this topic. Torture is wrong. 
It is also ineffective. Guantanamo is a symbol of a flawed, ill-
considered, and shameful policy. It must be closed.
    Guantanamo was a mistake. History will reflect that. It was created 
in the early days as a consequence of fear, anger, and political 
expediency. It ignored centuries of rule of law and international 
agreements. It does not make us safer, and it sullies who we are as a 
Nation. That in over a decade we have failed to acknowledge the mistake 
and change course is unforgivable and ignorant.
    We can win the fight against terrorism and religious extremism, but 
only if we adhere to our American values. If we kill every terrorist on 
the planet but in the process abandon the Constitution and our values, 
then in their deaths they will have succeeded, and we will no longer be 
Americans and this country will no longer be the bastion of democracy, 
freedom, and liberty.
    Terrorists want to make us live in fear. They want to change who we 
are as a people. By both standards as long as Guantanamo continues, 
they are winning, and we are playing into their hands.
    Thank you for the opportunity to share my views with you.
                                 ______
                                 
   Statement of James A. Gondles, Jr., Executive Director, American 
                        Correctional Association
                             April 28, 2016
         u.s. prisons can safely hold guantanamo bay detainees
    Chairman Perry and Ranking Member Watson Coleman, thank you for 
allowing me to share my views with you. The Obama administration 
recently released a comprehensive plan for closing the prison at 
Guantanamo Bay. The plan necessarily requires the Government to move 
some prisoners to the United States for continued detention. To listen 
to some of rhetoric, one might think that the U.S. prison system is 
woefully unprepared to handle dangerous terrorists. This is 
categorically untrue.
    U.S. corrections systems, both military and civilian, already hold 
extremely dangerous people, including terrorists, and have done so for 
years. Mass murderers, professional assassins, serial killers: They all 
reside unthreateningly in American penitentiaries run by professionals 
who generally have been in the business a lot longer than Gitmo has 
existed.
    Take ``Blind Sheik'' Omar Abdel Rahman. A close associate of Osama 
bin Laden and spiritual leader to terrorists responsible for attacks in 
several countries, he was involved in the 1993 World Trade Center 
bombings. Convicted by a jury in a Federal trial in 1995, he's serving 
a life sentence in a Federal prison in North Carolina. Even though al-
Qaeda still calls for his release and has made him part of hostage 
demands, there have been no jailbreak attempts or attacks on nearby 
communities since he was locked up more than 20 years ago.
    The son-in-law of Osama bin Laden, Sulaiman Abu Ghaith, and 
Zacarias Moussaoui, the 20th 9/11 hijacker are also currently held in 
the United States. There is Ahmed Abu Khattala, who participated in the 
2012 attack on the Benghazi embassy. There are the 8 men involved in 
the 1998 bombings in Kenya and Tanzania. Finally, we safely hold 
Dandeny Munoz Mosquera, once the chief assassin of Colombia's Medellin 
Cartel.
    All of these men are dangerous criminals, and U.S. corrections 
facilities keep them safely away from the public, out of sight and out 
of mind. Hundreds of convicted terrorists have gone to prison in the 
United States since 9/11. None has escaped. None has created security 
threats for the communities near the prisons. Few, if any, Americans 
even realize when a dangerous criminal arrives at a prison in their 
city, county, or State because politicians aren't drawing attention to 
this occurrence, telling them they ought to be afraid.
    Under President Obama's plan, the Government will send many of the 
Guantanamo detainees home or to a third country. A small number of 
detainees would be transferred to the United States, and no matter how 
dangerous they are, U.S. correction system professionals, military and 
civilian, have the ability, training, and capacity to take them on. To 
imply otherwise is insulting to the men and women of the Federal Bureau 
of Prisons, U.S. military detention officers, and civilian corrections 
professionals charged with keeping communities safe and guarding the 
Nation's most dangerous individuals.
    The Guantanamo prison has been a source of debate since its 
inception. But there should be no debate about the U.S. corrections 
systems' ability to hold Guantanamo detainees should they be 
transferred State-side.
    The American Correctional Association takes no position on closing 
the detention facility at Guantanamo Bay. But those that are opposed to 
closing it shouldn't try to win people to their side by stoking 
irrational fears. It's important for the American people to know that 
when it comes to housing Guantanamo detainees, we're not afraid--and 
they shouldn't be, either.

    Mr. Thompson of Mississippi. Thank you, and welcome, 
Governor, to this subcommittee hearing. Following the terrorist 
attacks of September 11, 2001, the United States faced the 
question of what to do with so-called unlawful combatants 
captured in military operations in Afghanistan or other 
counterterrorism operations. The answer at the time that 
military leaders seized upon was a U.S. military prison located 
within the Guantanamo Bay Naval Base in Cuba. The first 20 
detainees arrived at Guantanamo Bay prison on January 11, 2002.
    Since that time, Guantanamo Bay has served as a prison camp 
to detain dangerous individuals, to interrogate those 
individuals on suspected acts of terrorism, and to prosecute 
those individuals for war crimes. At its peak, there were 
roughly 680 individuals held at Guantanamo Bay. During the Bush 
administration, more than 500 were released to their home 
countries or transferred to a third country. This month, the 
Department of Defense announced that they would transfer 9 
detainees to Saudi Arabia. The total number of individuals 
currently at Guantanamo Bay is 80. I want to make it clear that 
Guantanamo Bay has served its purpose and must be closed. 
Closing the Guantanamo Bay detention facility is a National 
security imperative. Its continued operation weakens our 
National security by furthering the recruitment propaganda of 
violent extremists, hindering relations with key allies and 
partners, and draining Department of Defense resources.
    In 2009, President Obama signed an Executive Order 
expressing these concerns and ordering the closing of the 
detention facilities. As part of the closure, it may be 
necessary for those detainees who cannot be transferred to a 
third-party country to be in prison in the United States in 
facilities deemed capable of doing so.
    Today, I expect to hear concerns of the National security 
implications for transferring suspected terrorists to the 
United States. Some of the witnesses may even say that bringing 
detainees to the United States brings terrorism to our own 
backyards. Based on years of research and analysis by the 
Departments of Defense, State, and Homeland Security, these 
concerns simply are not supported. There is no evidence that 
suggests housing Guantanamo detainees would bring additional 
attacks, attention, or danger to the United States. In fact, 
America has a long track record of incarcerating dangerous 
terrorists. Some of the most dangerous terrorists in the world 
that we have known are incarcerated in U.S. maximum-security 
prisons, such as the Supermax facility in Colorado. In fact, 
the man who tried to bring down the World Trade Center in 1993 
and his co-conspirators have been serving multiple life 
sentences in Supermax since 1997. No one terrorist or any 
criminal has ever escaped from the Supermax prison. The only 
person charged in the 2012 terrorist attack on the U.S. 
compound in Benghazi is currently being held in Alexandria, 
Virginia, approximately 15 miles from where we are sitting now. 
In fiscal year 2015, the cost to operate Guantanamo Bay was 
approximately $445 million. In addition to these annual costs, 
maintaining the facility in the future would require an 
additional $200 million. Closing the facility is expected to 
save between $140 million and $180 million annually. The plan 
President Obama delivered to Congress represents the best and 
most secure way to close the prison at Guantanamo Bay.
    Today I encourage everyone to focus on the facts and not 
baseless fear. I look forward to your testimony and the 
testimony of all the witnesses and fact-based answers to my 
questions today.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             April 28, 2016
    Following the terrorist attacks of September 11, 2001, the United 
States faced the question of what to do with so-called ``unlawful 
combatants'' captured in military operations in Afghanistan or other 
counterterrorism operations. The answer, at the time, that military 
leaders seized upon was a U.S. military prison located within the 
Guantanamo Bay Naval Base in Cuba.
    The first 20 detainees arrived at the Guantanamo Bay prison on 
January 11, 2002. Since that time, Guantanamo Bay has served as a 
prison camp to detain dangerous individuals, to interrogate those 
individuals on suspected acts of terrorism, and to prosecute those 
individuals for war crimes.
    At its peak, there were nearly 800 individuals held at Guantanamo 
Bay. During the Bush administration, more than 500 were released to 
their home countries or transferred to a third country. This month, the 
Department of Defense announced that with the transfer of 9 detainees 
to Saudi Arabia, the total number of individuals currently at 
Guantanamo Bay is 80.
    I want to make it clear that Guantanamo Bay has served its purpose 
and must be closed. Closing the Guantanamo Bay detention facility is a 
National security imperative. Its continued operation weakens our 
National security by furthering the recruiting propaganda of violent 
extremists, hindering relations with key allies and partners, and 
draining Department of Defense resources.
    In 2009, President Obama signed an Executive Order expressing these 
concerns and ordering the closure of the detention facilities. As part 
of the closure, it may be necessary for those detainees who cannot be 
transferred to a third-party country to be imprisoned in the United 
States in facilities deemed to be able to safely, securely, and 
humanely house detainees for the purpose of military commissions and 
continued law of war detention.
    Today, I expect to hear concerns of the National security 
implications for transferring suspected terrorists to the United 
States. Some of the witnesses may even say that bringing detainees to 
the United States brings terrorism to our own backyards.
    Based on years of research and analysis by the Departments of 
Defense, State, and Homeland Security, these concerns simply are not 
supported. There is no evidence that suggests housing Guantanamo 
detainees will bring additional attacks, attention, or danger to the 
United States.
    In fact, America has a long track record of incarcerating dangerous 
terrorists. Some of the most dangerous terrorists the world has ever 
known are incarcerated in U.S. maximum-security prisons, such as the 
Supermax facility in Colorado.
    In fact, the man who tried to bring down the World Trade Center in 
1993 and his co-conspirators have been serving multiple life sentences 
in Supermax since 1997. No one--terrorist or any criminal--has ever 
escaped from the Supermax prison. The only person charged in the 2012 
terrorist attack on the U.S. compound in Benghazi is currently being 
held in Alexandria, Virginia, approximately 15 miles from where we are 
sitting now.
    Some who oppose the transferring of detainees to U.S. soil are 
fear-mongering that it would damage State tourism. The facts do not 
support this argument.
    Tourism has gone up--considerably--in both Virginia and Colorado, 
even as both have terrorists in their Federal prisons. In fact, 
Virginia's tourism revenues topped $22.4 billion in 2014, a 4.1 percent 
increase over 2013, while Colorado posted a record 71.3 million 
visitors and $18.6 billion in revenue.
    In fiscal year 2015, the cost to operate Guantanamo Bay was 
approximately $445 million. In addition to these annual costs, 
maintaining the facility in the future would require an additional $200 
million.
    Closing the facility is expected to save between $140 and $180 
million annually. The plan President Obama delivered to Congress 
represents the best and most secure way to close the prison at 
Guantanamo Bay.
    Today, I encourage everyone to focus on the facts and not base-less 
fear. I look forward to your testimony and fact-based answers to my 
questions today.

    Mr. Perry. The Chair thanks the gentleman.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record. We are pleased to 
have two panels of distinguished witnesses before us today.
    The Chair will now recognize the gentleman from South 
Carolina, Mr. Duncan, to introduce the first witness.
    Mr. Duncan. Thank you, Mr. Chairman.
    Thanks for holding this incredibly important hearing today. 
It is a great day in Washington, just like it is a great day in 
South Carolina, because I am honored and proud to introduce my 
good friend Governor Nikki Haley. First elected Governor in 
2010 as the 116th Governor of the great State of South 
Carolina, she is the first female and first minority Governor 
in State history and is currently the youngest Governor serving 
in the Nation.
    Prior to becoming Governor, we served together in the South 
Carolina General Assembly for 6 years. She has been an ardent 
leader in South Carolina, bringing numerous jobs to the State 
and constantly furthering South Carolina's economic 
development. I appreciate her hard work as Governor and her 
leadership in bringing our State through some very difficult 
times, especially in the last 12 months. She is also an alumna 
from my alma mater, Clemson University. We are very--both very, 
very proud of that.
    She has been a vocal opponent from the very beginning of 
the President's plan to move the Guantanamo Bay terrorists to 
the United States, specifically to the Naval Consolidated Brig 
in Charleston, South Carolina. I am excited to have her testify 
before our subcommittee, providing a Governor's perspective on 
this important issue.
    So, welcome, Governor Haley.
    Thank you, Mr. Chairman. I yield back.
    Mr. Perry. The Chair thanks the gentleman.
    One point of administrative concern. The Chair asks 
unanimous consent that the gentleman from New York, Mr. Katko, 
be allowed to sit on the dais and participate in this hearing.
    Without objection, so ordered.
    The Chair thanks the gentleman.
    Thank you, Governor, for being here today.
    The witness' full written statement will appear in the 
record. The Chair now recognizes Governor Haley for her 
testimony.

STATEMENT OF HONORABLE NIKKI R. HALEY, GOVERNOR, STATE OF SOUTH 
                            CAROLINA

    Governor Haley. Thank you very much.
    We invite all of you to South Carolina, where it is 80 
degrees and sunny. So we hope that you will come and take the 
time to visit soon.
    Chairman Perry, Ranking Member Thompson, and Members of the 
subcommittee, thank you for the opportunity to be here to speak 
on this issue of National importance.
    I especially want to thank Congressman Duncan and other 
Members of the South Carolina delegation for their support on 
this issue.
    In August of last year, my office was contacted out of the 
blue by the Department of Defense to inform us that they were 
traveling to Charleston, South Carolina, to assess the U.S. 
Naval Consolidated Brig for the possibility of housing 
Guantanamo Bay detainees. Imagine my surprise. Not only was it 
against Federal law to transfer Guantanamo detainees into the 
United States, but why would anyone want to put terrorists in 
Charleston? Charleston, the city we call the Holy City, the 
city named the No. 1 vacation spot in the country for 4 years 
in a row. In South Carolina, the State that was named the 
friendliest State in the country, the most patriotic State in 
the Union. It makes zero sense.
    On February 23, 2016, President Obama announced his plan to 
close Guantanamo Bay detention facility currently used to house 
some of the deadliest terrorists in history, including the 
principal architect of the September 11 attacks, Khalid Sheikh 
Mohammed. This plan contained little new information. It did 
not even name a State-side facility for law-of-war detention 
but, instead, referenced the Department of Defense's 2015 
survey of 13 potential but unidentified facilities. In the 
opening paragraph of the plan, President Obama presents the 3 
reasons for why it is a National-security imperative that the 
United States end its mission in Guantanamo Bay.
    Regardless of any merit that may support these assertions, 
they do not support the conclusion that the terrorists should 
be transferred to Charleston, South Carolina, or any other 
location in the United States. I know that other witnesses 
today will discuss specific costs and security concerns. So my 
testimony today will focus on 3 specific reasons provided by 
the President's plan.
    First, the President claims that Guantanamo Bay serves as 
propaganda and a recruitment tool for terrorists. Well, of 
course, it does. But so do statements by public leaders, the 
United States' stance against terrorism, and American values as 
a whole. So too certainly would a similar facility located in 
Charleston, South Carolina; Leavenworth, Kansas; or Florence, 
Colorado.
    Terrorists have chosen to wage war on the United States 
based on ideological hatred towards the American way of life 
and the fundamental freedoms for which we pride ourselves. The 
September 11th attacks occurred before there was ever a 
Guantanamo Bay facility, as did the first World Trade Center 
bombing, the USS Cole bombing, and numerous other attacks or 
attempted attacks on United States interests around the world.
    Moving detention operations from a secure facility outside 
of the continental United States and into Charleston will not 
stop the propaganda. This line of thinking is giving the 
terrorists too much credit and too much validity. Terrorists do 
not need a jail to hate us. They hate us on their own.
    Second, the President contends that the presence of the 
facility at Guantanamo Bay is somehow a major impediment to our 
relationships with foreign nations. As a Governor, my principal 
engagement outside of the United States is admittedly on the 
economic development front, attracting foreign investment to my 
State. That being said, assuming the President's assertions are 
true, the question that comes to my mind is: What about 
detention activities at Guantanamo Bay is damaging to our 
relationships with foreign leaders and nations? Whether the 
terrorists are detained on an American military base in Cuba or 
somewhere in the United States, they will be held under the 
same legal authority by the same country in the same manner for 
the same duration for the same reasons. Why does the ZIP Code 
matter?
    As to the impact on foreign relations in South Carolina, I 
can tell you I am tremendously concerned. In the Charleston 
area alone, we have international manufacturing giants Boeing, 
Mercedes-Benz, and now Volvo. We have one of the most important 
deepwater ports on the Atlantic Coast. South Carolina is home 
to the largest BMW-producing plant in the world. We have 5 
international tire companies. We also have GE, Google, Bosch, 
DuPont, I could go on and on. How am I to tell these companies 
that they will be sharing an address with the most heinous and 
dangerous terrorists on Earth, that the city that they chose to 
call home is now going to be one of the most high-profile 
terrorist targets in the world. The truth is: I can't, and I 
won't.
    Finally, the President wants to talk about cost. Let me 
first say, if there is one thing we can all agree the Federal 
Government is absolutely responsible for, it is defending the 
people of the United States of America. While the Department of 
Defense is not immune from fiscal waste, running a military 
prison to detain terrorists during an on-going armed conflict 
should not be high on the list of cost-saving measures. I come 
from a State where we balance our budget. I promise we can help 
you find $85 million somewhere else to cut. But more than that, 
cost simply doesn't matter to me. You could pay the State of 
South Carolina to host these terrorists, and we wouldn't take 
them for any amount of money. There is no price worth the fear 
this reckless idea would strike in the hearts of the people of 
my State. There is no price worth the inevitable economic 
downturn it would cause. There is no price worth watching 
terrorists across the globe celebrate victory and rightly claim 
that they can dictate the military posture of what should be 
the most powerful nation in the world.
    I would like to close with this: As the Members of the 
subcommittee know better than most, National security decisions 
should be made with one and only one consideration in mind: 
What is in the best interest of the safety and security of the 
citizens of the United States? While serious policy issues with 
no easy answers underline the long-term detention and final 
disposition of terrorists captured during armed conflict, the 
location of a United States-controlled military prison should 
not be determined based on loose perception, estimates, and 8-
year-old campaign pledges. Last summer, the people of 
Charleston stared hate directly in the eye. We know true hate, 
and we know what fear it can bring. We don't need to see it 
again, nor do we wish it on any other State. Keep the 
terrorists where they are, where they belong. Do not bring them 
to my home. I, again, thank you for the opportunity to speak 
here today, and I look forward to your questions.
    [The prepared statement of Governor Haley follows:]
               Prepared Statement of Hon. Nikki R. Haley
                             April 28, 2016
                              introduction
    Chairman Perry, Ranking Member Watson Coleman, and Members of the 
subcommittee, thank you for the opportunity to be here to speak on this 
issue of National importance.
    In August of last year, my office was contacted by a representative 
of the Department of Defense to inform us they were traveling to 
Charleston, South Carolina to assess the U.S. Naval Consolidated Brig 
for the possibility of housing Guantanamo Bay detainees. Imagine my 
surprise: Not only was it against Federal law to transfer Guantanamo 
detainees into the United States--and has been since 2010--but why 
would anyone want to put terrorists in Charleston?
    We came to learn that the Obama administration was not only 
surveying the Charleston brig, but also other facilities across the 
United States--military and civilian, Federal and State.
    On February 23, 2016, President Obama announced his plan to close 
the Guantanamo Bay detention facility, currently used to house some of 
the deadliest terrorists in history, including the principle architect 
of the September 11, 2001 attacks--Khalid Sheikh Mohammed. This 
``plan'' contained little-to-no new information, but instead discussed 
detainee disposition options previously outlined in other forums. Nor 
did it name a State-side facility for law-of-war detention, but instead 
referenced the Defense Department's 2015 survey of 13 potential 
facilities with no list included.
    In the opening paragraph of the plan, President Obama presents 
three reasons for why it is a ``National security imperative'' that the 
United States end its detention mission at Guantanamo Bay. According to 
the President, the continued operation of this detention facility:
    1. Serves as recruiting propaganda for violent extremists;
    2. Hinders relations with key allies and partners; and
    3. Drains Department of Defense resources.
    Regardless of any merit that may support these assertions, they do 
not support the conclusion that terrorists should be transferred to 
Charleston, South Carolina (or any other location within the United 
States). Notwithstanding the legal ambiguity associated with the 
transfer of long-term law-of-war detainees into the United States, my 
testimony today will focus on the 3 specific reasons provided by the 
President's plan.
           first, recruiting propaganda of violent extremists
    Guantanamo Bay no doubt serves as propaganda for terrorists, but so 
do statements by public leaders, the United States' stance against 
terrorism, and American values generally. Terrorists have chosen to 
wage war on the United States based on an ideological hatred towards 
the American way of life, and the fundamental freedoms on which we 
pride ourselves. The September 11 attacks occurred before there ever 
was a Guantanamo detention facility, as did the first World Trade 
Center bombing, the U.S.S. Cole bombing, and numerous other attacks or 
attempted attacks on United States' interests around the world. Moving 
detention operations from a secure facility outside of the continental 
United States and into Charleston, South Carolina will not stop the 
propaganda. This line of thinking is giving these terrorists too much 
credit and validity. Terrorists do not need a jail to hate us. They 
hate us all on their own.
    But, what could be accomplished by moving the facility to 
Charleston? Well, taking the propaganda assertion as fact, Charleston 
will then be used in an attempt to inspire potential terrorists to join 
the fight. And with the increased accounts of home-grown terrorism and 
terrorist sympathizers around the country, we do not want to put a 
bulls-eye on what has been named the No. 1 vacation destination in the 
country for 4 years in a row simply to fulfill a misguided campaign 
promise.
               second, interference in foreign relations
    As a Governor, my principal engagement outside of the United States 
is on the economic development front, attracting foreign investment 
into my State. That being said, assuming the President's assertions are 
true, the question that comes to my mind is what about detention 
activities at Guantanamo Bay is damaging to our relationships with 
foreign leaders and nations?
    Whether the terrorists are detained on an American military base in 
Cuba or somewhere in the United States, they will be held under the 
same legal authority, by the same country, in the same manner, for the 
same duration, and for the same reasons. Why does the zip code matter 
from a foreign relations standpoint?
    Completely unrelated to physical location, maybe foreign relations 
concerns are due to pure negative perception because the President has 
been lamenting the prison facility's existence ever since he was 
running for office. And if this perception does matter abroad, I would 
hope the leader of the most powerful and influential country in the 
world could brush aside the aesthetic complaints of a well-run, Geneva-
Convention-compliant facility when dealing in matters of National and 
international importance.
                 third, department of defense resources
    If there is one thing we can all agree the Federal Government is 
absolutely responsible for, it is defending the National security 
interests of the United States. And while the Department of Defense is 
not immune from fiscal waste, running a military prison to detain 
terrorists during an on-going armed conflict should not be high on the 
list of things that need to be cut.
    In President Obama's plan, he states that moving the detainees to 
the United States could save between $65 million and $85 million 
annually. He estimates that one-time costs associated with hardening a 
United States structure will be between $290 million and $475 million, 
but over the course of 3 to 5 years the lower operating costs of the 
United States facility could fully offset these transition costs and 
generate at least $335 million in net savings over 10 years. Whether or 
not one agrees that it is worth saving $85 million annually to put 
terrorists in our backyard--and let me be clear that I do not--the 
estimated time frame and cost to harden a United States facility should 
give budget writers and policy makers great pause. South Carolina is 
well aware of the Federal Government's ability, or lack thereof, to 
maintain project time lines and cost projections, even in cases where 
the project is designed to address foreign relations and international 
agreements. One need look no further than the MOX facility at the 
Savannah River Site in Aiken, South Carolina, currently billions of 
dollars over budget and years past original completion projection 
dates.
                             in conclusion
    As the Members of this committee know better than most, National 
security decisions should be made with one, and only one, consideration 
in mind: What is in the best interests of the National security of the 
United States of America? While serious policy issues with no easy 
answers underline the long-term detention and final disposition of 
terrorists captured during armed conflict, the location of a United 
States-controlled military prison should not be determined based on 
loose-perception, estimates, and campaign pledges.
    I again thank you for the opportunity to speak here today.
    I look forward to your questions.

    Mr. Perry. Thank you, Governor Haley.
    The Chair now recognizes himself for 5 minutes of 
questions.
    We have already spent a fair amount of time today 
discussing the security implications of bringing Guantanamo 
detainees to the homeland and particularly to your State. In 
that vein, can you please just describe for the committee 
Members some of the South Carolina-specific concerns that you 
and law enforcement agencies under your purview would have?
    Governor Haley. You know, the first thing as a Governor I 
will tell you is, what does it do to the reputation of the 
State where you take these detainees? So here in South 
Carolina, where we have worked massively on bringing Made in 
America jobs to South Carolina, what company is going to invest 
in a State where they keep these heinous terrorists? They are 
not going to. The reason is companies look at where they are 
going to bring their suppliers, where they are going to bring 
their customers. They don't want that reputation on them as 
they go forward.
    Now you look at the tourism aspect of it: Who is going to 
come vacation in a State that is now known to house these 
terrorists? It completely taints what we have been proud to say 
is the No. 1 tourist destination for 4 years in a row. But it 
would do this to any other State.
    All of these implications are very important, and we know 
we are already having to stand up all of our armed bases, all 
of our security, because the targets right now are on 
servicemen and -women. You are just putting another target, but 
now you are going to put it on Charleston, South Carolina. It 
is wrong. To go and have States now have to deal with one more 
issue when we are dealing with so many is wrong. Our focus now 
is, how do we keep our servicemen and -women safe? Because, 
right now, if I sit down and talk to my FBI affiliates as well 
as my chief of SLED, that is who we are trying to protect, 
because the targets are our military--any military people in 
uniform, any security in uniform.
    Then if you go and you put it in a place like South 
Carolina, we are not only going to have protests, but we will 
also have threats that we don't have right now. Why would you 
move something there and cause stress on this country when, 
right now, this country is going through so many home-grown 
issues on its own to turn around and add one more to it?
    Mr. Perry. Following up on that a little bit, just to set 
the context. Of course, the detention facility in Guantanamo 
Bay is sequestered--there is not going to be any protests. 
Right? I mean, nobody is flying to Guantanamo Bay for 
recreating or whatever and then would be, you know, protesters 
at some point. Of course, you are not going to go there 
unannounced and exercise some terrorist activity. That is just 
not going to happen in Guantanamo Bay. So it is shielded from 
that by the virtue of its geography and the kind of place that 
it is.
    Also, I just want to say, since you mentioned the military 
and, of course, you have a high concentration of military 
servicemembers in the State and in the area, thank you for 
your--you served with your husband as well. We appreciate--the 
country appreciates your sacrifices in that regard.
    Can you talk at all about the costs to local law 
enforcement, whether it is regarding protests, whether it is 
regarding being prepared for any eventuality, and to not have 
that ``failure of imagination'' where either one of these 
individuals would get out, or someone would use the facility as 
a target or try and get somebody out? Can you address that at 
all?
    Governor Haley. You know, we can talk about costs, but you 
can't put a cost on fear. You can't put a cost on what it will 
do to a State. We looked at hate in the eye last year. We had 
to deal with that. Our State is still recovering from that. It 
is unbelievable what it will do to the people of a State when 
they know hate is anywhere near them. There is no cost you can 
put on that. What I can tell you is we have had to stand up our 
armed bases. We have already had to add additional security to 
our military, to our officials, in everything and anything we 
do because every State in the country now has to be more 
careful. But, really, cost to me is such a frivolous 
conversation in this whole piece of what it will do, because 
when you have been a State that knows what this is like, you 
never want to go back to that. No State should ever have to 
know what that fear feels like.
    Mr. Perry. Have the local law enforcement agencies in 
collaboration with Federal enforcement agencies done any cost 
estimates that you know of? Like you said, it is very difficult 
to quantify. But at some point, it is going to require 
additional--whether it is additional training, whether it is 
additional manpower, additional equipment, briefings, 
protocols. I mean, have you even begun? Based on the phone call 
that you said you got, have you even started down that road, 
and have local law enforcement officials aware of this 
expressed any concern to you?
    Governor Haley. We have talked to our directors, whether it 
be that of SLED, whether it be of DPS, whether it be of our 
military bases and adjutant general. Those are conversations we 
will have. I am prepared to spend whatever it takes to protect 
my people. But what I will tell you, again, is this is 
something that, on every level, whether it be law enforcement, 
whether it be military, whether it be tourism, whether it be 
economic development, every call that I have gotten has been: 
Please don't let this happen to South Carolina.
    Mr. Perry. Thank you, Governor. My time has expired.
    The Chair now recognizes the Ranking Member, Mr. Thompson, 
for his 5 minutes of questions.
    Governor Haley. Good morning.
    Mr. Thompson of Mississippi. Thank you very much. Again, 
Governor, thank you for appearing before the subcommittee this 
morning.
    I will get to my question. Have you had any dealings with 
the proposed facility that they are talking about potentially 
transferring the prisoners to?
    Governor Haley. The Department of Defense has had no 
interactions with us whatsoever outside of suddenly getting a 
call saying that they were going to be going to the Charleston 
Navy Brig. That is all that we have gotten. They have not had 
any communication with us or told us what to expect or anything 
else to that effect.
    Mr. Thompson of Mississippi. To your knowledge, are you, as 
Governor, spending any money from the taxpayers' standpoint in 
the maintenance and operation of that naval facility?
    Governor Haley. Right now, not any additional money is 
being spent on that facility outside of we are trying to plan 
on economic development issues within that area. But that has 
all stopped now that they have decided to come in. It would be 
extremely helpful if the Department of Defense would engage 
with us and let us know what they are doing.
    Mr. Thompson of Mississippi. Yeah, I agree. A phone call 
would not be enough. But if they demonstrated that they would 
pick up the cost of whatever is involved, is that a concern of 
yours, or are there some other concerns?
    Governor Haley. They could tell me that they would pay 
South Carolina to house these terrorists, and I would not take 
them. The State of South Carolina does not want them. There is 
no amount of money that they can pay, whether it be cost or 
supplement, that would justify those detainees coming to South 
Carolina.
    Mr. Thompson of Mississippi. I appreciate your opinion.
    You reference what happened in Charleston relative to the 
unfortunate circumstances at Mother Emanuel.
    Governor Haley. Yes.
    Mr. Thompson of Mississippi. Some of us also participated 
in funeral services and other things, and it was not a good 
day. That is the other ugly head of terrorism called domestic 
terrorism.
    Governor Haley. That is right.
    Mr. Thompson of Mississippi. I compliment you and the local 
law enforcement for how you addressed it.
    Governor Haley. Thank you.
    Mr. Thompson of Mississippi. Can you just for the record 
tell me who has custody of the young man charged with killing 
the people at Mother Emanuel?
    Governor Haley. He is in South Carolina.
    Mr. Thompson of Mississippi. Is he in a Federal facility or 
State or a county facility?
    Governor Haley. I believe he is in a State facility.
    Mr. Thompson of Mississippi. Do you know where? Is he in 
Charleston? Is he in Sumter or where?
    Governor Haley. He is in Charleston.
    Mr. Thompson of Mississippi. So the fellow who did that 
heinous crime is in Charleston right now?
    Governor Haley. Yes.
    Mr. Thompson of Mississippi. Has that posed any kind of 
security issues, to your knowledge, for the people of 
Charleston?
    Governor Haley. We won't let it pose any security issues. 
Right now, what I can tell you is it is a constant reminder. It 
is a constant reminder of what happened, what we have to deal 
with, as we have to know that he is there. No one wants him 
there. Right now, they are in the process of going forward with 
the death penalty.
    Mr. Thompson of Mississippi. There is no issue on my part 
to pursue the death penalty at all.
    Governor Haley. Right.
    Mr. Thompson of Mississippi. But the fact is sometimes we 
have difficult jobs to do that include dealing with bad people. 
As Governor, you and local officials are dealing with this bad 
person. Whatever is required to make sure that that bad person 
is kept in a facility where he can't harm anyone. To the extent 
that he is prosecuted to the fullest extent of the law, your 
oath of office and other things would allow you to expend 
whatever resources to guarantee the safety of the people in 
South Carolina. That is the point I am trying to get at.
    Governor Haley. Yes, sir. I appreciate your point, Mr. 
Thompson, and, you know, our goal is that we will deal with him 
as we need to deal with him. That was a home-grown issue that 
we will, you know, absolutely deal with.
    We just don't want 80 more coming to Charleston. Dealing 
with one has shaken the State enough. I can't imagine what we 
would have to do if we had to deal with 80 of them.
    Mr. Thompson of Mississippi. Thank you very much.
    I yield back.
    Governor Haley. Thank you.
    Mr. Perry. The Chairman thanks the gentleman.
    The Chair now recognizes the gentleman Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Governor Haley, I apologize that the Ranking Member had to 
bring discussion about a deranged murderer into a discussion 
about Guantanamo Bay terrorists that are backed by global 
organizations known as al-Qaeda, ISIS, ISIL, whichever term we 
want to use, Boko Haram, Abu Sayyaf, and the list goes on and 
on of organizations that are global terrorist organizations 
that have a completely different mindset than individuals that 
are deranged and commit heinous crimes in this country.
    For the record, Mr. Chairman, the Governor sent a letter to 
Secretary of Defense Ash Carter along with Governor Brownback 
on August 25, and there was also an executive order July 16, 
2015, by Governor Haley after the Chattanooga terrorist attack. 
I would like to submit that for the record, please.
    Mr. Perry. Without objection, so ordered.
    [The information follows:]
               Letter Submitted by Honorable Jeff Duncan
                                   August 25, 2015.
The Honorable Ashton B. Carter,
Secretary, U.S. Department of Defense, Washington, DC 20301.
    Dear Secretary Carter: We recently received notice that the 
Department of Defense is surveying the U.S. Naval Consolidated Brig in 
Charleston, South Carolina and the U.S. Disciplinary Barracks at fort 
Leavenworth, Kansas to assess the possibility of housing Guantanamo Bay 
detainees. Simply put, we do not want them in our states.
    Those who are held at Guantanamo Bay are among the deadliest 
terrorists in history, including the principle architect of the 
September 11, 2001 attacks--Khalid Sheikh Mohammed. In response to a 
previous attempt by this Administration to transfer these detainees to 
the United States in 2009, Congress unambiguously prohibited such 
transfers, and has extended that prohibition every year since. Any 
detainee transfer from Guantanamo Bay to the United States would be a 
violation of federal law, a law we hope this Administration will 
respect and faithfully execute.
    South Carolina and Kansas are sovereign states with excellent 
military installations, and we are proud of the men and women in 
uniform, and their families, who sacrifice for us every single day and 
call our states home. We will not be part of any illegal and ill-
advised action by this Administration, especially when that action 
relates to importing terrorists into our states. Please know that we 
will take any action within our power to make sure no Guantanamo Bay 
detainees are transferred to South Carolina or Kansas.
            Sincerely,
                                            Nikki R. Haley,
                                          Governor, South Carolina.
                                             Sam Brownback,
                                                  Governor, Kansas.
                Attachment.--Executive Order No. 2015-18
                        State of South Carolina
                          executive department
                         office of the governor
                      executive order no. 2015-18
    WHEREAS, on July 16, 2015, five United States service members were 
killed and numerous others wounded in a domestic terrorist attack at a 
military recruitment and a Naval Station in Chattanooga Tennessee; and
    WHEREAS, this kind of targeted, domestic attack on United States 
military personnel has become increasingly common in recent years and 
presents the threat of violence to service men and women and military 
facilities in South Carolina; and
    WHEREAS, precautionary measures are needed to protect those service 
men and women who have volunteered to protect us; and
    WHEREAS, immediately following the attack in Chattanooga, I ordered 
a full review of all South Carolina National Guard facilities and 
installations and ordered active shooter exercises, coordination, and 
training with law enforcement; and
    WHEREAS, these reviews completed by the South Carolina National 
Guard indicate a need to further enhance security at National Guard 
facilities and provide more opportunities for Guardsmen to defend 
themselves against a threat of violence or terrorism; and
    WHEREAS, as commander-in-chief of the State in accordance with 
Article IV, Section 13 of the State Constitution, I may take such 
measures as necessary in order to prevent violence to persons or 
property of citizens and maintain peace, tranquility, and good order, 
and pursuant to Section 1-3-410 of the South Carolina Code of Laws, it 
appears to my satisfaction that there exists a threat of violence to 
National Guard members and facilities in the State of South Carolina; 
and
    WHEREAS, I may appoint such personnel that I deem necessary to 
assist in the detection and prevention of crime in this State, 
including at all store-front recruitment centers and other facilities 
of the South Carolina National Guard, pursuant to Section 23-1-60.
    NOW, THEREFORE, pursuant to the power conferred upon me by the 
Constitution and Statutes of the State of South Carolina, I hereby 
order the Adjutant General of the State of South Carolina as follows:
    1. To install security enhancements at all store-front recruitment 
        centers and other facilities of the South Carolina National 
        Guard as he deems necessary.
    2. To identify and designate appropriate and qualified members of 
        the National Guard, State Guard, or any civilian employees 
        thereof to undergo specific force protection training 
        coordinated through the South Carolina Law Enforcement 
        Division.
    3. To assign and arm those individuals who successfully complete 
        force protection training with specific duties and 
        responsibilities, including, but not limited to, the detection 
        and prevention of crime at all store-front recruitment centers 
        and other facilities of the South Carolina National Guard in 
        this State at such times as he deems necessary.
    4. To coordinate with State and local civilian law enforcement 
        agencies for additional protection as they deem necessary.
    5. To periodically issue and terminate orders to State Active Duty 
        pursuant to Title 1, Chapter 3 for such members of the National 
        Guard or State Guard as he deems necessary until such time as a 
        permanent plan for force protection is implemented.
    FURTHER, pursuant to Section 23-1-60, I hereby appoint those 
appropriate and qualified members of the National Guard, State Guard, 
or any civilian employees thereof who have successfully completed the 
force protection training coordinated through the South Carolina Law 
Enforcement Division to carry out the duties and responsibilities 
assigned by the Adjutant General of the State of South Carolina as he 
deems necessary to safeguard all store-front recruitment centers and 
other facilities of the South Carolina National Guard in this State. 
Such appointments do not confer general law enforcement duties or 
responsibilities for any other purpose.
    FURTHER, I hereby direct the Chief of the South Carolina Law 
Enforcement Division to expedite applications for concealed weapons 
permits from any member of the South Carolina National Guard, in 
accordance with state law.
    FURTHER, I hereby direct all state and local law enforcement 
agencies in the State of South Carolina to cooperate with the South 
Carolina National Guard in furtherance of this Order in accordance with 
state and local laws.
    This order shall take effect immediately.
    Given Under My Hand and the Great Seal of the State of 
             South Carolina, This 17th Day of August, 2015.
                                          Nikki R. Haley, Governor.
                                                    Attest:
                                  Mark Hammond, Secretary of State.

    Mr. Duncan. Thank you.
    Governor Haley, my understanding is there is a school in 
fairly close proximity to the Charleston Naval Brig, elementary 
school or middle school. Is that correct?
    Governor Haley. Yes. I actually spoke with the 
Representative from that area, and he called me yesterday and 
said: ``Good luck tomorrow.'' He said: ``Everybody in my area 
is terrified of what could happen.''
    Mr. Duncan. So we are talking about South Carolinian 
mothers and fathers that are considering sending their children 
to a school in close proximity to some of the most wanted and 
dangerous terrorists in the world. So thanks for pointing that 
out.
    The letter that you and Governor Brownback sent to Ash 
Carter, did you all get a response on that?
    Governor Haley. I am not aware that we got a response.
    Mr. Duncan. No response from that----
    Governor Haley. I will follow up and just confirm that, but 
I am not aware of a response. They have been very--they have 
handled this very much on their own and have not included us in 
the process. I have had conversations with Governor Brownback, 
and I have made it very clear, and I want it to be made very 
clear, any Governor in the country that has to deal with this, 
I will fight for them to make sure this doesn't happen in their 
State either. This is not just about South Carolina. This is 
about every State in the country.
    Mr. Duncan. So, just to be clear, it doesn't sound like the 
administration is having any dialogue with Governors across the 
country that are considered--their States are considered for 
the Guantanamo Bay terrorists.
    Governor Haley. No, sir. What we know is that already we 
have had to sit there and wonder what is going to happen. But, 
again, the fear that it has put in every State up for--who we 
think is up for consideration, the fear that every State has 
is, what is going to happen, when is it going to happen, when 
is the turnaround time, what are we--and we don't have any 
answers for them.
    Mr. Duncan. Well, it is interesting because the 
administration talks about stakeholder involvement, public 
input. In fact, they just denied offshore areas off the coast 
of South Carolina, Georgia, North Carolina, and Virginia in the 
next 5-year drilling plan for energy development so that our 
States can play a part in energy renaissance and energy 
security. They touted the fact that they talked to 
stakeholders. When 78 percent of South Carolinians that were 
polled wanted to see our areas opened up, the stakeholders they 
talked to were a very, very small group of environmentalists.
    But here we have got the administration wanting to fulfill 
a campaign promise and bring terrorists--these aren't just 
criminals; These are terrorists backed by the organizations I 
mentioned earlier--to States, to the U.S. soil, illegally in 
violation of the NDAA, by the way, which is a bilateral NDAA 
that goes back multiple Congresses that have said the same 
thing, in violation of that, bring these terrorists to U.S. 
soil, to South Carolina, Kansas, or maybe another State, 
without any correspondence with the Governor? The Governor 
represents 4.8 million people in South Carolina. The general 
assembly--124 in the house, 46 in the senate--represent a 
combined total of 4.8 million people in South Carolina. The 
congressional delegation, 7 of us, represents 4.8 million 
people in South Carolina who overwhelmingly support your 
decision to stop or try to stop the administration bringing 
terrorists to Charleston, South Carolina.
    So he will listen to a small group of environmentalists 
about energy issues, but he won't listen to the Governor, the 
general assembly, and the Congressional delegation with regard 
to bringing terrorists to U.S. soil? That is alarming to me.
    So let me ask you this: Has there been any sort of threat 
assessment with regard to the Naval Brig transferring the 
terrorists? I believe, right now, terrorists on an island, 
isolated from the mainland, very difficult to get to, very 
difficult for the terrorist organizations that are supporting 
these terrorists to free them, attack the island or whatnot; 
they are guarded by United States Marines, by the way. Has 
there been a threat assessment about that brig in Charleston 
and whether that is a possible target and how that would be 
handled that you are aware of?
    Governor Haley. So, again, we have not been given any 
information by the Department of Defense. What I can tell you 
is I look at this very much like I look at my correctional 
facilities. You never know what is going to happen. So if one 
has a medical emergency, you all of a sudden have to figure 
out: Okay. Where are they going to go? Which hospital is going 
to be there? How are we going to secure them from one point to 
the other? How are we going to handle everything they have to 
do in the process? If anything happens, and there is some sort 
of breakout or if they shut down the prisons or if they take 
over the prisons, which can happen, those are all things that 
we have to deal with now.
    But we are dealing with those in South Carolina. Never have 
we thought about or can we comprehend dealing with terrorists 
that have done the crimes that they have done.
    Mr. Duncan. Well, thank you for your valuable leadership on 
this. I would be interested to see what other Congressmen would 
say and what their Governors would say if their State was 
targeted for these terrorists. Thank you for your leadership 
and for being here today.
    Mr. Chairman, I yield back.
    Mr. Perry. The Chair thanks the----
    Governor Haley. If I could add one point: I would dare to 
say any Governor, Republican or Democrat, would not want these 
detainees in their State.
    Mr. Perry. The Chair thanks the gentleman from South 
Carolina.
    The Chair now recognizes the gentleman from Louisiana, Mr. 
Richmond.
    Mr. Richmond. Let me just start off by saying that I know 
that Mr. Duncan apologized on behalf of the Ranking Member. You 
know, I don't think the Ranking Member needs anybody to 
apologize for him, but if you want to apologize, that is fine. 
But I am sure he can speak for himself.
    The issue of bringing up Mother Emanuel and the fact that a 
terrorist is a terrorist is an issue that we have been raising 
on this side for a very long time. It doesn't matter the 
nationality of the perpetrator. It doesn't matter their 
motivation. Terrorism is terrorism no matter the perpetrator or 
the victim. So when we look at those 9 people that were killed, 
we call it domestic terrorism. The fact that you can hold a 
domestic terrorist means you have the ability to safely house a 
very dangerous person who others would want to do harm to. So 
you would agree that you at least have the ability to do it.
    Governor Haley. I will never question our military and our 
officers. We are totally capable, and I don't doubt them for a 
second that they are not able to do their job and able to do 
their job well.
    I am talking about the environment you bring upon a State 
when you create that kind of fear. You send a chill factor into 
a State that you can't put a cost on, that you can't put a 
reason on, that you can't give an explanation for.
    I know we have the best military in the world. My military 
will do whatever they have to do to protect the people of South 
Carolina. My officers will do whatever they have to to protect 
the people of South Carolina. That is not the issue. That will 
never be the issue.
    The issue is, why do you want to bring these detainees that 
have done these types of terrorist acts onto American soil when 
you don't have to? You don't have to. I am an elected official. 
I had campaign promises. I know what that is about. You want to 
fulfill every one. It is in your heart. It is in your soul that 
you want to fulfill it.
    I believe that President Obama had his intentions back in 
2008 when he was going against Mrs. Clinton that he had a 
reason for saying that. These are different times. We are 
seeing different types of terrorism. We are seeing a different 
level of terrorism. It is time to rethink this and understand 
that those people that are doing those types of acts that we 
send to Guantanamo, we are sending them there for a reason. We 
are keeping them there for a reason.
    Mr. Richmond. Well, let me ask you a question. In 2002, 
suspected terrorist Yasser Hamdi was transferred to a Naval 
Brig in Norfolk, Virginia, and then to a Naval Brig in 
Charleston, South Carolina, the same location being looked at 
today for some of the transfers. Did his presence cause 
concern? Did you even know he was there? I don't think you were 
Governor then, but, you know, did it create an uproar when we 
transferred him there?
    Governor Haley. I know that he was there, but the concern 
is you are not talking about 1. Not only that, this is a 
different day and time than it was back then. You are now 
looking at a time where we have seen tremendous amounts of 
terrorist attacks. You are looking at a time where you are now 
wanting to bring a different level of terrorist to South 
Carolina. So I don't think you can compare that one detainee 
that we happened to have at that time compared to the others. 
It is totally different.
    Mr. Richmond. Just because of the size of the number?
    Governor Haley. Because if you go and you bring these 
detainees here, now the way that the element comes to the area, 
it will encourage more people to want to go and be in South 
Carolina, whether to protest, whether to join forces, whether 
to create home-grown terrorism. All of those things that 
Governors are now trying to protect from as it is, you are 
creating a whole new magnet for that when you do something like 
this. That is the concern. We now--I get SLED reports, my State 
Law Enforcement Division. The SLED reports we get are now 
watching all of the home-grown terrorists that we think we may 
be getting that are being trained overseas and then are coming 
back wanting to do something. If you go and you put these 
detainees in South Carolina, you have just created a magnet.
    So that propaganda that you claim is in Guantanamo Bay, you 
are going to just move that propaganda to Charleston, South 
Carolina.
    Mr. Richmond. Well, let me just say, and I am from New 
Orleans, tourist area very similar to Charleston. Both created, 
founded, because of the slave trade. So I understand tourism 
being a base. But I guess my ultimate question is this, is just 
a classic example of, I guess, all the American territories and 
States saying: Not in my backyard. Let's leave them in Cuba 
because we don't have a responsibility over there, and we don't 
care about how--you know, the ramifications over there. So if 
everybody says ``not in my backyard,'' which is basically the 
argument that I hear, is: We just don't want the chaos 
associated with housing these bad guys.
    Governor Haley. So that would imply that all the Governors 
are wrong?
    Mr. Richmond. I am just asking if that is the argument, 
``not in my backyard.''
    Governor Haley. I think all the Governors know what this 
means when it is in their backyard.
    So this is not me saying: Oh, put it in North Carolina or 
put it in Kansas, or put it--I don't want it going into any 
State in the country. This is not a ``my backyard.'' This is 
the United States of America. This is an area that we are 
trying to keep safe. To bring terrorists from a place where 
they cannot harm anyone to an area that has populations within 
their States that they can harm. God forbid if one error 
happened, one, none of us wants that on us. None of us. We 
can't afford that.
    For what? Why are we having this conversation? What is the 
urgency to move these detainees? I have yet to hear what the 
logical reasoning is. The propaganda is not true, because they 
hate us because the terrorists will always hate America. They 
hate our freedoms. They hate what we stand for. They hate that 
we are against terrorism.
    So, for the tax money, the District of Columbia has never 
been that stickler on cutting tax dollars. I think we could 
help you save some money so that you can keep Guantanamo Bay 
open.
    When you talk about the other things that this will do, 
there are--I just don't get it. Neither do any of the Governors 
across this country understand what the urgency is to move 
terrorists that are in a place where we know they can't touch 
Americans. Why do we want to put them on American soil?
    Because now we not only know if they come to American soil, 
what sort of rights are they now going to have? We have watched 
the Supreme Court totally start to go down that slippery slope. 
We have dealt with the habeas corpus issues. We have dealt with 
all of that. So now what rights are we going to say that they 
are going to have because they are now on U.S. soil? No one has 
yet to be able to answer that question. Every Governor in the 
country wants to know what rights these terrorists are going to 
have and what we are going to have to deal with on that front. 
We deserve answers as Governors. We deserve answers to what you 
are trying to do to our States. The fact that no one in the 
Federal Government will give us those answers is an unfair 
assumption and an unfair thought to not allow the people of 
this country to speak up, because no one wants Guantanamo Bay 
in the United States.
    Mr. Richmond. Mr. Chairman, I see my time has expired.
    Mr. Perry. The Chair thanks the gentleman.
    The Chair now recognizes the gentleman from Georgia, Mr. 
Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    Governor, thank you for being here.
    Governor Haley. Good morning.
    Mr. Carter. Let me begin by saying I want to associate 
myself with your earlier testimony about this being an ill-
conceived plan and that I just think it is absolutely ludicrous 
to think that moving these prisoners to American soil could 
somehow improve our National security. I just don't get it. I 
don't understand it at all.
    I can tell you I think this is just, again, an ill-
conceived plan to try to keep a campaign promise, which makes 
it even worse.
    Governor, my question is this: I have the honor and the 
privilege of representing coastal Georgia, Savannah. You 
mentioned in your opening testimony that Charleston was the 
second-most favorable vacation spot behind Savannah, and that 
Georgia was the second-friendliest State. I wanted to make sure 
we got that clear.
    But, nevertheless, tourism is extremely important in 
Charleston, extremely important in Savannah. I know it is 
impossible to put an economic cost, to put a number on that, 
but can you imagine, can you just elaborate on the impact that 
that might have on tourism, the driving force in our economy, 
in Savannah, in Charleston, and in New Orleans?
    Governor Haley. Well, first of all, send greetings to my 
sister State and to Governor Deal as well. I will tell you that 
the cost associated--who is going to take their family? Who is 
going to take their kids? Because if you go to where the Naval 
Brig is, that is where a lot of the tourist issues are. You 
know, if you want to go down to the market, if you want to go 
to look at the houses, if you want to go to all those areas, 
you just, as a mom, you don't take your children anywhere near 
where you think there could be a threat. It is the perceived 
idea that they don't know.
    So, No. 1, tourism and conventions and all of those things 
would stop going to that State, and that is a big part of it. 
Second, you would stop having the element of TV shows. We now 
have Top Chef that is coming to South Carolina. Those types of 
questions are things that they ask because they don't want to 
be in a State that has any negativity to it.
    Then you look at the fact that even with the economic 
development projects that we have done in South Carolina, I 
don't even know how I would begin to talk to a CEO about 
something like that. I don't know how I could do that, because 
what people don't realize is it is not just getting a plant and 
having them manufacture or do work. They want a place where 
they can bring, host their suppliers and their customers and 
their executives to that area. What are you going to do to 
Charleston when you do that?
    Mr. Carter. Sure. Last time I checked, it was my impression 
that the role of the Federal Government was to assist you and 
to help the States and to help the local governments and 
increase----
    Governor Haley. Protect the citizens.
    Mr. Carter. Absolutely. On that point, let me say this: You 
know, I have always said that the No. 1 responsibility of the 
Federal Government is to protect our people and our homeland. 
For the life of me I can't understand how this is going to do 
anything except the exact opposite. But on the point of the 
Federal Government and their role, it seems to me like this is 
going to obviously--I am a former mayor and a former State 
legislator--and it is obvious that this is going to push more 
cost and more responsibility down to the States and down to the 
local communities. How are you going to deal with that?
    Governor Haley. It is one more thing that we will have to 
deal with. So not only is it going to be security and it is 
going to be military, it is going to be planning of medical 
services. It is going to be planning for should something go 
wrong. It is going to have to create routes and things that we 
to have in place. Governors have so much pressure now just in 
dealing with all the issues, whether it is tracking the 
terrorism in our State, whether it is tracking corrections and 
prisoners and making sure they stay in their place. This is a 
whole other level of threat that we would have to start doing. 
So trying to track the costs of this, I don't know what it is. 
But, again, even if it was zero, even if they agreed to pay us, 
cost is not an issue on this. This goes far beyond cost.
    Mr. Carter. Absolutely. I couldn't agree more. You know, to 
the point about--and you brought it up a number times during 
this testimony about protesters and about the propaganda 
portion of it. Obviously--and today, you know, we are an 
immediate newscast. I mean, this is being Tweeted right now; I 
can assure you. So the propaganda is a concern. It has got to 
be a concern of all of us. Certainly, I know it has got to be a 
concern of yours as a Governor.
    Governor Haley. I don't disagree with President Obama about 
the propaganda of Guantanamo. I think wherever you move the 
location, you are creating that same propaganda. It doesn't 
change anything.
    Mr. Carter. Not at all. Well, again, let me thank you for 
addressing this and for making the point succinctly that you 
have that it doesn't matter what State this is. It doesn't 
matter what city this is. We don't need this on our homeland. 
The No. 1 responsibility of the Federal Government is to 
protect our homeland, not to bring these people over here. 
Don't we understand that? That is what the people are saying. 
No. We don't want them over here.
    Governor Haley. I will stand side-by-side with any Governor 
that has to deal with this.
    Mr. Carter. Thank you, Governor. Thank you for your 
testimony.
    Mr. Perry. The Chair thanks the gentleman.
    The Chair now recognizes the gentleman from Georgia, Mr. 
Loudermilk.
    Mr. Loudermilk. Thank you, Mr. Chairman.
    Thank you, Governor, for being here. Just as a side note, 
all of my family is from Walhalla, South Carolina. So there you 
go.
    Governor Haley. We will take good care of them.
    Mr. Loudermilk. All right. Could you answer in your 
opinion, why are we currently keeping the detainees at 
Guantanamo Bay instead of originally just bringing them to the 
United States?
    Governor Haley. I mean, I think if you look at what the 
thought process was, anyone that was involved in a terrorist 
act or anyone that could possibly--that was in more, that could 
possibly do something of a terrorist attack, we put them there 
for a reason, and that was to keep the people of the United 
States safe.
    Mr. Loudermilk. Because they are threats to the----
    Governor Haley. Because they are absolutely to the American 
people.
    Mr. Loudermilk. So the idea was to keep them off of U.S. 
soil in the case of escape or any other action. In fact, 
speaking of escapes, they do happen. In 2010, we had 2,500 
escapes in the United States. In 2011, 3,100. In 2012, 2,500. 
In 2014, over 2,000. So escape is something that we must be 
concerned about.
    Governor Haley. It is something that we deal with in South 
Carolina and every Governor deals with across this country.
    Mr. Loudermilk. The Ranking Member brought up the case of 
the shooting in South Carolina. That was an American citizen 
who was under your legal jurisdiction. Correct?
    Governor Haley. That is correct.
    Mr. Loudermilk. So we would be adding more perpetrators 
into your State that aren't necessarily under your 
jurisdictional boundary.
    Governor Haley. That is exactly right.
    Mr. Loudermilk. Increasing the threats of which we already 
have threats in this Nation.
    There is another aspect of this: Is Charleston or South 
Carolina ever susceptible to natural disasters?
    Governor Haley. Yes, of course.
    Mr. Loudermilk. Such as hurricanes?
    Governor Haley. Yes.
    Mr. Loudermilk. Has the administration addressed at all an 
evacuation plan or the security risk should you have to 
evacuate a detention facility in the case of a hurricane?
    Governor Haley. Well, we would have to do that. If that 
happened, we would have to certainly figure out how we were 
going to do that. That, again, creates not only more security, 
but where do you go? What do you do with a terrorist like that?
    Mr. Loudermilk. Yeah. Of course, that would have an impact 
on you--not only the cost to the State but taking resources 
away that should be there helping citizens of South Carolina to 
escape the disaster.
    Governor Haley. The problem is, what answer do I give to 
the people of South Carolina? Because those are the questions 
they are going to have. No answer I can give them is ever going 
to be good enough.
    Mr. Loudermilk. There is one other area that this brings a 
threat that I haven't heard many talk about. That is the threat 
of additional terrorist attacks because you are housing known 
terrorists. If you recall the Garland, Texas, terrorist attack, 
that was because there was an art competition that they felt 
was offensive to Muslims. So there was an attack in Garland, 
Texas. Would you anticipate that ISIS, al-Qaeda, Hamas, 
Hezbollah, we can go down the list of those that threaten the 
United States and our security, our safety, our people, would 
that not increase the risk of soft-target attacks in South 
Carolina because you were housing known terrorists?
    Governor Haley. I think that was--I was respectfully trying 
to tell the Ranking Member and Mr. Richmond exactly why that is 
a concern, is because if it is there, we already--I am already 
dealing with FBI and SLED on issues that we know we may have in 
South Carolina and watching people who may want to do things in 
relation to all of those terrorist groups. If we housed 
anything in a State, that is going to be more of a reason for 
them to want to go to that area to do something in that area to 
help get that person out or to make a statement.
    Mr. Loudermilk. Do you know if anyone has--any detainee has 
ever escaped from Guantanamo Bay?
    Governor Haley. Not that I am aware of.
    Mr. Loudermilk. Do you know if any detainee--or there has 
ever been an attempted terrorist attack against the U.S. 
military facility at Guantanamo Bay?
    Governor Haley. Not that I am aware of.
    Mr. Loudermilk. What would your assessment be if there was 
an escape in Guantanamo Bay? Would that person be a direct 
threat to citizens of the United States other than our U.S. 
military there?
    Governor Haley. It is the whole reason they are there, so 
that they are not. It is to protect the rights, the freedoms, 
and the lives of United States citizens.
    Mr. Loudermilk. So Guantanamo Bay is working.
    Governor Haley. It is working, and it has been working. Why 
we are having this conversation, it just baffles me.
    Mr. Loudermilk. There are certain things that this 
Government and this administration does that baffles a whole 
lot of people of the United States. But being baffled and being 
threatened, your life, your liberty, your security, and your 
family is a totally different aspect. That is what I cannot 
understand why we want to change something that is working and 
put your State at risk.
    I see I am out of time, and thank you, Mr. Chairman.
    Thank you, Governor.
    Governor Haley. Thank you.
    Mr. Perry. The Chair thanks the gentleman.
    The Chair now recognizes the gentleman from New York, Mr. 
Katko.
    Mr. Katko. Thank you Governor. It is a pleasure to have you 
here today. I too have family--I am from Syracuse, New York, 
not New York City, Syracuse, upstate New York, and I too have 
family in Charleston. So----
    Governor Haley. Oh, great.
    Mr. Katko. Been there many times to Wild Dunes and also to 
Kiawah, and it is just an outstanding place.
    Governor Haley. Beautiful. Beautiful areas. Thank you. 
Visit often.
    Mr. Katko. But I want to talk to you about a couple of 
things. I want to kind of get a feel from you, if I may, as to 
what degree has the administration consulted with you or worked 
with you while evaluating the suitability of Charleston for a 
site for their--possibly--a site for these detainees. So, in 
2015, they did a survey. Did they work closely with you, or did 
they work with you at all on that?
    Governor Haley. Everything that they have done they have 
done on their own. The only thing they did was call us and let 
us know they would be visiting Charleston, which was the first 
we heard of, to go look at the Naval Brig.
    Mr. Katko. Are you telling me here that they made no effort 
to try and get input from you about this possible transfer of 
detainees?
    Governor Haley. No. So what that has done to not only me 
but every other Governor that is possibly looking at this, it 
has left us without any information to share with our 
constituents or any way to defend ourselves against the 
possibility of these detainees coming to our State.
    Mr. Katko. Just so I am clear, so they never spoke to you 
at all about the potential economic costs of bringing them to 
Charleston?
    Governor Haley. They did not.
    Mr. Katko. Did they talk to you at all the possible 
security concerns that may emanate from bringing these 
detainees to Charleston?
    Governor Haley. They did not.
    Mr. Katko. Did they talk to you at all or consult you at 
all, give you any heads-up or any input at all regarding the 
potential for Charleston becoming a target if the detainees are 
put there?
    Governor Haley. They have not given us any information to 
provide any comfort whatsoever.
    Mr. Katko. Well, that seems particularly outrageous, given 
the fact that there is a wealth of information about--I am on 
the Homeland Security Committee as a whole, and I have done a 
lot of work with respect to ISIS. One thing is for sure, like 
you said earlier, there is a totally different threat dynamic 
now than it was even 10 years ago in this country. ISIS and 
affiliated groups are radicalizing Americans over the internet 
to do violence at home without ever leaving. When they can use 
something like this to foment that violence, they most likely 
will. I am shocked that they wouldn't even at least talk to you 
or share any input with you about that.
    Governor Haley. No. We would welcome them talking to us 
because we would understand at least where we are in this 
situation and why they would consider the Naval Brig or even if 
we are still up for consideration. We have got no input 
whatsoever.
    Mr. Katko. That seems particularly outrageous to me. Now 
just switching gears briefly, isn't it true that this is a 
medium security facility, the Naval Brig?
    Governor Haley. Yes.
    Mr. Katko. Okay. So it is not even a max facility?
    Governor Haley. We would obviously have to do some things 
to it, and I guess, maybe, the Department of Defense has 
figured out how to do that, but they have not shared that.
    Mr. Katko. So I was a Federal prosecutor for 20 years, an 
organized crime prosecutor, prosecuting cartel-level drug 
traffickers. I can tell you, there is a slew of individuals 
that I prosecuted that are in maximum facilities for much less 
egregious crimes than what these individuals have committed 
against the United States.
    It is shocking to me that we have different grades in the 
Federal system: Medium, max, super max. To think about bringing 
probably perhaps the most dangerous individuals in the world to 
a medium-security facility, and then spend the extra money to 
upgrade that facility is perplexing, to say the least.
    Governor Haley. I agree.
    Mr. Katko. Now, have you ever considered--have you 
consulted with anyone about possibly taking legal action to 
stop this from happening, given the fact that it is illegal 
currently under the law for the United States to expend any 
money to transfer individuals from Guantanamo Bay to the United 
States?
    Governor Haley. Well, Governor Brownback and I both sent 
letters, because at the time, the word was that it was Kansas 
and South Carolina were the two States that were being strongly 
considered. So we sent a letter to Secretary Carter to let him 
know that we absolutely didn't want to have this happen. But, 
again, we have not heard of anything.
    Should we hear something, I will absolutely fight. I will 
absolutely sue. I will absolutely do whatever we need to do to 
protect our State. Like I said, Republican or Democrat, I will 
stand with any Governor that has to go through this, because I 
know the fear that it can put in the minds of the people of 
their State, but I also know the security concerns that that 
Governor would have.
    Mr. Katko. Last, it is true, is it not, that the vast 
majority, if not all of these detainees, are most likely facing 
a military tribunal, if any at all?
    Governor Haley. I think so, yes.
    Mr. Katko. Isn't it true that Guantanamo Bay is a military 
facility?
    Governor Haley. Yes, it is.
    Mr. Katko. So what are we doing?
    Governor Haley. I don't know. If you ever find out or talk 
to the Department of Defense--please do--we would love that 
information.
    Mr. Katko. I am not sure we will get an answer, but thank 
you very much, and I appreciate your time.
    Mr. Duncan. Would the gentleman yield the remaining time?
    Mr. Katko. I will.
    Mr. Duncan. In response to the Governor's question about a 
legal case, I filed a bill that gives the House of 
Representatives standing in court. If the President does 
violate the NDAA law and brings Guantanamo Bay terrorists to 
U.S. soil, the bill that I filed, H. Res. 617 would give Paul 
Ryan and the House of Representatives standing to stop this 
through legal means. I would ask the gentleman to sign on.
    Thank you for your time. I yield back.
    Mr. Perry. The Chair thanks the gentleman.
    The Chair also thanks Governor Haley for her valuable 
testimony, and the Members for their questions.
    First panel, Governor, you are excused.
    Governor Haley. Thank you.
    Mr. Perry. The Clerk will prepare the witnesses' table for 
the second panel. Thank you.
    [Recess.]
    Mr. Perry. All right. Everybody, thank you very much. We 
will reconvene.
    The Chair asks unanimous consent that the gentlelady from 
Kansas, Ms. Jenkins, be allowed to sit on the dais and 
participate in this hearing.
    Without objection, so ordered.
    The Chair will now introduce our witnesses for the second 
panel. We will be a little out of order for administrative 
purposes here. We will start with Sheriff Michael Bouchard--is 
that correct?
    Sheriff Bouchard. Yes, sir.
    Mr. Perry [continuing]. The sheriff of Oakland County, 
Michigan, where he leads one of the Nation's largest sheriff's 
offices, overseeing 1,300 employees, and managing an annual 
budget of over $140 million. Sheriff Bouchard is testifying on 
behalf of the Major County Sheriffs' Association. The 
Association is a professional law enforcement association of 
elected sheriffs representing counties or parishes with a 
population of 500,000 or more. Its membership represents over 
100 million Americans.
    Mr. Ken Gude is a senior fellow at the Center for American 
Progress. He has served in numerous roles at the Center since 
its founding in 2003. Previously, Mr. Gude was a policy analyst 
at the Center for National Security Studies.
    At this point, the Chair yields to the gentlelady from 
Kansas, Ms. Jenkins, to introduce our second witness on this 
panel.
    Ms. Jenkins. Thank you, Mr. Chairman, for allowing me this 
great opportunity to introduce Mr. Thompson, the Leavenworth 
County attorney in the Second Congressional District in the 
great State of Kansas.
    Mr. Thompson is a Kansan in every sense of the word. He is 
a Leavenworth native, and his family dates back 150 years in 
Leavenworth. He graduated from the University of Kansas, and 
went on to graduate from Washburn University School of Law, 
both phenomenal universities in the Second District. His 
knowledge of the impact that a detainee transfer may have on 
Leavenworth and the entire region stems from his time as the 
top law enforcement official in Leavenworth County, and it will 
provide much-needed context and insight into this process.
    I thank him for taking his time to come to Washington and 
sit before this subcommittee to answer questions. I have full 
faith in his ability. He will help Congress and the President, 
I think, better understand the implications and the 
repercussions of such a transfer.
    Thank you, Mr. Chairman. I yield back.
    Mr. Perry. The Chair thanks the gentlelady from Kansas, Ms. 
Jenkins.
    Thank you, all, for being here today.
    Mr. Perry. The Chair recognizes Sheriff Bouchard for an 
opening statement.

 STATEMENT OF MICHAEL J. BOUCHARD, SHERIFF OF OAKLAND COUNTY, 
MICHIGAN OAKLAND COUNTY SHERIFF'S OFFICE, TESTIFYING ON BEHALF 
           OF THE MAJOR COUNTY SHERIFFS' ASSOCIATION

    Sheriff Bouchard. Thank you, Mr. Chairman, Ranking Member 
Thompson, and distinguished Members of the subcommittee.
    I am, as mentioned, Michael Bouchard. I am sheriff of 
Oakland County. I have been in law enforcement for almost 30 
years and run one of the largest sheriff's offices in America. 
As vice president in charge of government affairs for Major 
County Sheriffs' Association, I am here to testify on their 
behalf.
    Far too often, local law enforcement is not consulted ahead 
of policy decisions that have direct consequence and 
implications for our communities. Despite years of conversation 
about closing GTMO, transferring detainees, at no single point 
has the administration requested our perspective on this topic.
    As constitutionally-elected officials, MCSA is adamantly 
opposed to any effort to close GTMO and transfer detainees to 
U.S. soil. The nature of violence in America and around the 
world has evolved in the expansion of encryption, social media 
for mass propaganda, inspiration for lone-wolf attacks, and 
selective recruitment has exponentially grown.
    Securing a homeland cannot be an afterthought. Law 
enforcement regularly and proactively plans and practices for 
the unthinkable. After the attacks in Mumbai, I contacted all 
of the chiefs in my AOR and called on us to train together on a 
regular basis for just such a scenario.
    A detainee housed in the backyard of on ISIS sympathizer 
would be a powerful inspiration for a lone-wolf attacker and 
for the recruitment. We know ISIS has gone so far as to suggest 
targets, even in my county where they published a suggested 
kill list with home addresses. Clearly, a community that houses 
prisoners from GTMO could easily be added to such a list. 
Prison radicalization and recruitment is on-going and a big 
concern. The same context that is applied to Federal prisoners 
must be applied to GTMO detainees, no matter if they are housed 
in a military facility or not.
    Going back as far as 2003, BOP Director Harley Lappin 
testified before the Senate that we know inmates are 
particularly vulnerable to recruitment by terrorists.
    The September 2015 former detainee summary report issued by 
the ODNI reported that 30 percent of former GTMO prisoners are 
confirmed or suspected of being back in terrorism. 
Additionally, just a few months ago, Spanish and Moroccan 
authorities arrested 4 suspected ISIS affiliates, including 1 
described GTMO detainee.
    With higher recidivism and the proclivity for extreme 
violence, releasing or transferring any additional detainees is 
simply counterintuitive. Even in the increased threat 
environment, law enforcement has continually been asked to do 
more with less. Local law enforcement does not have the 
necessary funds and, most recently, the life-saving equipment 
to properly address National security implications associated 
with transferring detainees to the United States.
    Grant programs, such as UASI, work to address those gaps 
with local agency capabilities; however, over the years, we 
have seen a steady decline in those funding. Most recently, 
President Obama's fiscal year 2017 budget cut UASI by 45 
percent.
    The LESO military surplus program and Federal grant 
programs are great examples of Federal partnership with local 
communities. However, through executive action, not 
legislation, this administration recalled 1033 military surplus 
equipment and placed burdensome rules on others.
    On the very same day San Bernardino terrorists attacked our 
Nation, in one of the worst attacks since 9/11, my office 
received an order that returned an armored personnel carrier to 
the Federal Government to be destroyed. The police in San 
Bernardino said ``the terrorists came prepared today.'' On that 
day, America became less prepared because of that Executive 
Order.
    GTMO-housed detainees in U.S. facilities would present an 
extraordinary burden on the local community. Sheriff McMahon, a 
friend of mine in San Bernardino, has already incurred a 
$350,000 overtime bill from that one event and a $19 million 
expenditure.
    When emergencies arise, Federal officials in military are 
not the first responders. It is the locals. Local must 
practice, prepare, train, and equip to deal with any situation, 
and bringing people here will necessitate that expenditure. 
That means significant investment, planning, training, and 
equipment, and all of these unreimbursed costs have been 
ignored in the so-called saving effort.
    Protests against, around, or at those facilities outside of 
the wire would be a local responsibility and cost, as would an 
escape. We have always sought to be a positive source of ideas 
and collaboration, and we applaud the subcommittee's interest 
in hearing our thoughts.
    Mr. Chairman, I thank you for the time, and I would be 
happy to answer questions.
    [The prepared statement of Sheriff Bouchard follows:]
               Prepared Statement of Michael J. Bouchard
                             April 28, 2016
    Chairman Perry, Ranking Member Watson Coleman, distinguished 
Members of the subcommittee, thank you for the invitation to discuss 
local law enforcement's perspective regarding the implications of 
transferring Guantanamo detainees to the homeland. Today's hearing is 
timely and much-needed; far too often local law enforcement is not 
consulted ahead of policy decisions that have direct and potentially 
dire and dangerous implications for our local communities.
    I am currently serving my fourth 4-year term as sheriff and have 
been in law enforcement for almost 30 years. I run one of the largest 
sheriff's offices in the country where I oversee 1,300 employees and 
manage an annual budget of over $141 million. We provide police, jail, 
and court services for over 1.2 million people and nearly 1,000 square 
miles. In addition to serving the people of Oakland County, I am also 
the vice president of government affairs for the Major County Sheriffs' 
Association of America (MCSA). I am here testifying on their behalf. 
The MCSA is an association of elected Sheriffs representing our 
Nation's largest counties with populations of 500,000 people or more. 
Collectively, we serve over 100 million Americans.
    As constitutionally-elected law enforcement officials, the MCSA is 
adamantly opposed to any effort to close the U.S. detention facility on 
the Guantanamo Bay Naval Base and transfer detainees to U.S. soil. More 
so now than ever before, our Nation is facing increasingly 
sophisticated threats from abroad and from within. Given the evolution 
of the threat environment, State and local law enforcement--in 
conjunction with our Federal partners--are at the forefront of keeping 
our homeland secure. It goes without question that any effort to 
transfer Gitmo detainees to U.S. soil has immense National security 
implications.
    The current threat environment from ISIS and other international 
terror groups cannot be underestimated. The nature of violence in 
America and around the world has evolved as has the expansion of 
encryption, use of social media for mass propaganda, inspiration for 
lone-wolf attacks and selective recruitment. It is no secret that 
social media has played a primary role in the unprecedented uptick of 
ISIS sympathizers and disciples. Through the George Washington 
University Program on Extremism, over 300 American and/or U.S.-based 
ISIS sympathizers have been identified on-line as actively spreading 
propaganda.\1\ Since March 2014, 85 individuals across 24 States have 
been charged in the United States with offenses related to ISIS and it 
has been reported that since the fall of 2015, roughly 250 Americans 
have traveled or attempted to travel to join ISIS.\2\
---------------------------------------------------------------------------
    \1\ https://cchs.gwu.edu/sites/cchs.gwu.edu/files/downloads/
ISIS%20in%20America%20%20-Full%20Report.pdf.
    \2\ https://cchs.gwu.edu/sites/cchs.gwu.edu/files/downloads/
ISIS%20in%20America%20%20-Full%20Report.pdf.
---------------------------------------------------------------------------
    Law enforcement is the first group to respond to areas in times of 
emergency, with the great responsibility to act quickly and effectively 
in times of terror and uncertainty. Securing the homeland cannot be an 
afterthought--law enforcement regularly and proactively prepares for 
the unthinkable and as the threat picture and nature of violence has 
evolved, so too has local law enforcement. After the attacks in Mumbai, 
I contacted all the chiefs in my area of responsibility and called on 
us to train together on a regular basis. Further, we needed to train on 
the same tactics so we could respond and meld together immediately 
should a similar scenario develop here. Local police now are directly 
responsible for responding to the changing threat matrix.
    Law enforcement officials' ability to lawfully access digital 
evidence has been severely hamstrung by technological advancements and 
non-technological barriers to access. We in the law enforcement 
community find ourselves in a new age where criminals and terrorists 
enthusiastically operate beyond the confines of the law through 
encrypted networks, applications and mobile devices. The encrypted 
applications used for preplanning and coordination among the Paris 
attackers may have prevented the advance detection of the attacks, but 
the cell phone of one of the terrorists recovered outside the Bataclan 
theater helped investigators apprehend the ringleader of the attack, 
Abdelhamid Abaaoud. When law enforcement officials identified Abaaoud's 
cousin in the phone's call list and her location, Abaaoud was finally 
located.\3\ It was later confirmed that Abaaoud died in the detonation 
of a suicide bomb during the raid.
---------------------------------------------------------------------------
    \3\ http://www.nytimes.com/2016/03/20/world/europe/a-view-of-isiss-
evolution-in-new-details-of-paris-attacks.html.
---------------------------------------------------------------------------
    Unnecessarily increasing the threat outlook by transferring 
dangerous detainees puts our local communities at risk. A detainee 
housed in the backyard of an ISIS sympathizer would be powerful 
inspiration for a lone-wolf attack and/or further recruitment--an 
unwarranted and avoidable inspiration. We know that ISIS even goes so 
far as to suggest targets. In my county, ISIS published a list of 
military members as a suggested kill list. Cleary, a community that 
houses prisoners from Guantanamo Bay could be easily added to such a 
list. Additionally, internal prison recruitment poses a significant and 
complex challenge.
    As the uptick of indicted ISIS-related offenses increases, 
additional attention must be given to radical recruitment efforts in 
prison. The same context that is applied to Federal prisoners can also 
be applied to Guantanamo detainees, no matter if they are housed in a 
military facility. In 2011, the House Homeland Security Committee under 
the leadership of Congressman King (R-NY) examined post-9/11 U.S. 
prison radicalization cases in which converted Muslims were radicalized 
to Islamism in American prisons and upon release, attempted to launch 
terror attacks in the homeland.
    Kevin James, a radicalized former Nation of Islam adherent, formed 
Jam'iyyat Ul-Islam Is-Saheeh (JIS) while at Folsom State prison and 
recruited fellow prisoner, Levar Washington who proclaimed to be 
inspired to convert to Islam after the success of 9/11.\4\ While in 
prison, James developed a target list for parolee Levar which included 
LAX, a military recruiting station and a Jewish children's camp--James 
was later convicted of seditious conspiracy to levy war against the 
United States. Another case example involves Jose Padilla. Padilla 
converted to radical Islam in a Florida jail, moved to the Middle East 
where he joined al-Qaeda, spent time at a military training camp and 
was sent back to the United States in 2002 to carry out a radioactive 
dirty bomb attack.\5\
---------------------------------------------------------------------------
    \4\ https://homeland.house.gov/press/background-information-
prominent-post-911-us-prison-radicalization-cases/.
    \5\ http://www.chicagotribune.com/news/chi-jose-padilla-prison-
sentence-20140909-story.html.
---------------------------------------------------------------------------
    Prison radicalization and recruitment is an on-going concern. 
Former director of the Bureau of Prisons, Harley Lappin, testified back 
in 2003 before the Senate Judiciary Subcommittee on Terrorism, 
Technology, and Homeland Security where he stated, ``We know that 
inmates are particularly vulnerable to recruitment by terrorists and 
that we must guard against the spread of terrorism and extremist 
ideologies. In addition, our institutions work closely with the Local 
Joint Terrorism Task Forces (JTTF) to share information and 
intelligence about these inmates.''\6\ Many of our MCSA members devote 
both personnel and resources to these JTTFs without Federal 
reimbursement.
---------------------------------------------------------------------------
    \6\ https://www.judiciary.senate.gov/imo/media/doc/
lappin_testimony_10_14_03.pdf.
---------------------------------------------------------------------------
    Influential radicalized inmates pose a series of complex challenges 
to law enforcement officials--they can encourage other prisoners, upon 
release, to go to specific locations in an effort to further their 
extremist ideologies and can urge inmates to incite violence within the 
facility posing a substantial risk to prison security. Should those 
influential radicalized inmates or Gitmo detainees be released, 
additional scrutiny would need to be applied given the rate of 
recidivism.
    In the September 2015 ``Summary of the Reengagement of Detainees 
Formerly Held at Guantanamo Bay, Cuba'' issued by the Office of the 
Director of National Intelligence (ODNI) it was reported that 30 
percent of former Guantanamo prisoners are confirmed or suspected of 
reengaging in terrorism.\7\ Additionally, just a few months ago, 
Spanish and Moroccan authorities arrested 4 suspected ISIS affiliates--
including 1 described as a former Gitmo detainee.\8\ With a high 
recidivism and penchant for extreme violence, releasing or transferring 
any additional detainees is simply counterintuitive.
---------------------------------------------------------------------------
    \7\ https://www.dni.gov/files/documents/
September_2013_GTMO_Reengagement_UN- CLASS_Release_FINAL.pdf.
    \8\ http://www.haaretz.com/middle-east-news/1.705003.
---------------------------------------------------------------------------
    With an increased threat environment, law enforcement has 
continually been tasked to do more with less. Cost implications coupled 
with a heightened security environment is simply unsustainable. In an 
era of deep budget cuts and lack of Federal funding, State and local 
law enforcement does not have the necessary funds, and most recently 
the necessary life-saving equipment, to adequately address the National 
security implications associated with Gitmo detainees being housed 
within U.S. facilities.
    Grant programs such as the State Homeland Security Grant Program 
(SHSP) and the Urban Areas Security Initiative (UASI) work to address 
gaps in local agencies' capabilities for responding to terrorist 
threats. Other programs such as the Edward Byrne Memorial Justice 
Assistance Grant Program (JAG) have a broader focus of providing 
critical funding to support a range of different program areas. Over 
the past few fiscal years, law enforcement has seen a steady decline in 
Federal grant funding and most recently, President Obama's fiscal year 
2017 budget request cut UASI funds by 45 percent. The amount of monies 
we receive for these new and evolving threats is a trickle at best.
    The Law Enforcement Support Office (LESO) military surplus and 
Federal grant programs are examples of a good partnership between the 
Federal Government and local government entities. It is fiscally 
responsible and assists in equipping our Nation's law enforcement with 
equipment that saves lives. In areas of our Nation that are fiscally 
stressed, it is potentially the only way their law enforcement officers 
would ever receive that type of support. The transfer of equipment from 
Federal inventory saves taxpayers a significant amount of money, simply 
because Federal surplus items have already been purchased once. In 
fact, many of the same items that they receive through Federal 
assistance programs have been used by law enforcement agencies for 
decades.
    Through executive action and not legislation, the administration 
has recalled certain 1033 controlled military surplus equipment. While 
the ultimate goals of law enforcement remain the same: To protect the 
public; to solve, deter, and respond to criminal acts; and to enforce 
the law in a responsible and Constitutional manner, the administration 
has sought to inappropriately legislate through perception at the cost 
of public safety. On the very same day as the San Bernardino terror 
attack--our Nation's worst attack since 9/11--my office received an 
order to return our armored personnel carrier back to the Federal 
Government. The recall of certain types of controlled equipment will 
undoubtedly leave America's law enforcement less prepared and at a 
disadvantage to protect local communities against terror attacks and 
dangerous situations.
    Guantanamo detainees housed in U.S. facilities would require an 
exorbitant amount of resources from State and local law enforcement 
agencies. Resources ranging from manpower associated with hospital 
watch, medical and/or court transfers, to a coordinated escapee and 
riot response plans. Local law enforcement would also be tasked with 
preparing and responding to any protestors or sympathizers outside of 
the facility gates and into our local communities. When an emergency 
arises, Federal officials and the military are not the first to 
respond--local law enforcement are and as such, need to be adequately 
prepared to properly address the situation at hand. That means both a 
significant investment in planning, training, and equipment by the 
affected local jurisdictions. Some have lauded the closure of Gitmo as 
a cost-saving measure, but that is most assuredly short-sighted--both 
from a National security and taxpayer perspective. Additionally, with 
the recent efforts to transfer detainees to other countries the 
argument that so few are left it only makes sense to close the base is 
neither subtle nor supported.
    As stewards of the rule of law, the MCSA respectfully reminded the 
President that he signed 2 separate pieces of legislation into law that 
explicitly bar the use of funds to transfer, release, or assist in the 
transfer or release of Gitmo detainees to or within the continental 
United States.\9\ In compliance with current law and in full 
understanding of the inherent National security risk, MCSA believes 
Gitmo detainees should, under no circumstance, be brought to the 
homeland where they will pose a threat to the communities we serve.
---------------------------------------------------------------------------
    \9\ http://www.mcsheriffs.com/pdf/news/
mcsa_gitmo_closure_letter_to_potus.pdf.
---------------------------------------------------------------------------
    For many years politicians and pundits have discussed the closure 
of Gitmo and at no single point has the administration requested local 
law enforcement's perspective or opinion on the matter. MCSA has always 
sought be a positive source of ideas and collaboration and we applaud 
the committee's interest in our unique perspective as the chief elected 
law enforcement officials in America. Speaking on behalf of our robust 
membership, we are committed to the protection of our communities and 
believe the closing of Guantanamo Bay poses an unnecessary threat to 
the safety of the citizens we are sworn to protect.

    Mr. Perry. The Chair thanks the gentleman.
    The Chair recognizes Mr. Gude for an opening statement. 
Correction--no, we will go ahead with that. It is on the script 
here. We will go with that.

STATEMENT OF KEN GUDE, SENIOR FELLOW, NATIONAL SECURITY, CENTER 
                     FOR AMERICAN PROGRESS

    Mr. Gude. Thank you, Mr. Chairman.
    I know that you are an Iraq War veteran and a general 
officer of Reserves, and I want to thank you for your service.
    Mr. Richmond and Mr. Duncan, I appreciate you being here 
for this hearing today.
    I think it is an incredibly important hearing that we spend 
time talking about the facts associated with the implications 
of bringing Guantanamo detainees into the United States.
    First, I want to say that I do agree with President Obama 
that closing Guantanamo would advance the National security 
interests to the United States. That is not just an opinion 
that President Obama came up with in his campaign; it was a 
broadly shared view from senior Government officials, National 
security officials of both parties in 2007, 2008, and 2009.
    George W. Bush, in his memoir, wrote about the necessity of 
closing Guantanamo. Then-presidential candidate John McCain, 
his plan to close Guantanamo would have moved all of the 
detainees to Fort Leavenworth in 2009. A host of other very 
high-ranking former officials agree with the necessity for 
closing Guantanamo. Colin Powell reiterated just this year how 
necessary it was.
    So I want to go off script a bit, as you, Mr. Chairman, did 
in your remarks, and express my sincere disappointment that you 
would so casually impugn the integrity of our military officers 
and the men and women serving in the Pentagon, that they would 
be presenting their--what is not their full judgment to this 
administration, that it is in the National security interests 
of the United States to close Guantanamo.
    I think you owe them an apology. I don't think that you, 
when you were serving, would be clouding your judgment based on 
the political imperatives that you felt from your superiors. I 
feel like that kind of a comment is indicative of why it is so 
difficult for us to have a reasoned debate and a reasoned 
analysis of this issue. It is a critical National security 
issue.
    Now, looking at assessing whether or not Guantanamo 
detainees or international terrorists inside the United States 
prisons or inside secure military facilities would present a 
risk to the United States, we don't have to speculate. We have 
the wisdom of experience. I think it would surprise everyone 
here in this room, everyone watching on TV, everyone following 
this debate, to learn that it was a Republican President who 
first brought a Guantanamo detainee to the United States.
    Yasser Hamdi, in 2002, was transferred first to Virginia, 
and then to Charleston, the very subject of the first panel. It 
is unclear to me why that was not the same kind of incredible 
security risk that Governor Haley and the Members of this 
subcommittee seemed to indicate it was in the first panel when 
Yasser Hamdi was held in Charleston for 2 years.
    Not only was Yasser Hamdi held in Charleston, but Jose 
Padilla. This is a man that was accused of trying to detonate a 
radiological dirty bomb in the United States, as well as Ali 
al-Marri. They are the 3 detainees that were held in Charleston 
for almost the entirety of the Bush administration. There was 
no uproar about it at the time. There were no protestations 
from Governor Sanford to the Bush administration, or to 
Congress, that those detainees in Charleston represented the 
kind of security risk that we heard this morning.
    The notion that in 2002 still in the shadow of the horrific 
attacks of 2001 that brought down the World Trade Center and 
attacked the Pentagon, that we faced somehow a lesser threat 
than we do now, I find very hard to believe. The detainees in 
Charleston are not the only ones. We have at least 11 States 
and the District of Columbia since 9/11 which have housed very 
high-ranking senior and extremely dangerous international 
terrorists at maximum-security prisons, or in secure prison 
facilities.
    It was alluded to in the Ranking Member's opening statement 
that just 15 miles from here, right now the accused ring leader 
of the Benghazi attack is sitting in an Alexandria prison 
awaiting trial. He was been there for almost 2 years. There has 
been no protest. There has been no political controversy 
surrounding that particular aspect of the Benghazi attack, yet 
the notion that bringing Guantanamo detainees into the United 
States in a very similar situation presents an unacceptable 
risk is hard for me to understand and hard for me to fathom.
    I would just close with one last comment about the 
implications for State and local officials. Certainly, there is 
emergency response planning that these officials have to deal 
with on a day-to-day basis for almost every eventuality. The 
notion that Pentagon officials, Defense Department officials, 
and the city of Charleston and State of South Carolina have not 
prepared for the possibility that the Charleston Naval Base 
will have to be evacuated because of a hurricane strikes me as 
hard to believe.
    Simply because there could be Guantanamo detainees there 
now, as there were Guantanamo detainees there for a number of 
years before, doesn't change the fact that they have all done 
these kind of plans.
    With that, I will conclude my opening statement, and I look 
forward to your questions. Thank you.
    [The prepared statement of Mr. Gude follows:]
                     Prepared Statement of Ken Gude
                             April 28, 2016
    Chairman Perry, Ranking Member Watson Coleman, and other 
distinguished Members of the subcommittee, thank you for the 
opportunity to appear before you today. I am pleased that you are 
holding this hearing so that we can thoroughly examine the issues 
related to transferring Guantanamo detainees to the United States for 
either trial in Federal court and incarceration in Federal prisons or 
continued law of war detention in military custody.
    A careful review of the record of the Federal court system and our 
military detention facilities both prior to and since 9/11, under both 
Democratic and Republican administrations, clearly shows that this is a 
task that the United States can handle safely, securely, and with no 
threat and little disruption to local communities.
    Closing the prison at Guantanamo remains a National security 
imperative. Guantanamo is a symbol of lawlessness, torture, and abuse 
and continues to be a potent aspect of anti-American messages 
distributed by our enemies and adversaries. It is no accident that ISIS 
forces their captives to wear Guantanamo-like orange jumpsuits.
    For these reasons, a long, bi-partisan list of senior Government 
and National security figures do not believe Guantanamo advances U.S. 
National security interests.
    Former President George W. Bush wrote in his 2010 memoir, Decision 
Points, ``the detention facility [Guantanamo] has become a propaganda 
tool for our enemies and a distraction for our allies.''
    Then-Republican presidential candidate Senator John McCain 
repeatedly pledged to close Guantanamo during the 2008 campaign, even 
producing the specific recommendation that he would ``close Guantanamo 
Bay. And I would move those prisoners to Ft. Leavenworth.''
    Former Secretary of State James Baker said in 2008 that ``one of 
the best things'' the next President could do to improve American 
security would be ``to close Guantanamo, which is a very serious blot 
on our reputation.''
    Former Chairman of the Joint Chiefs of Staff and Secretary of State 
Colin Powell said in 2007, ``I would close Guantanamo not tomorrow, but 
this afternoon. I would simply move them to the United States and put 
them in our Federal legal system.'' Powell reiterated his support for 
closing Guantanamo and transferring detainees to the United States 
earlier this year, saying, ``we've got prisons that can hold them. 
They're not going to cause any problems if they go to Leavenworth or 
even Rikers Island.''
    I join with these and other senior current and former U.S. 
Government officials in supporting President Obama's decision to find 
another location to hold those Guantanamo detainees that the United 
States wants to maintain custody over after transferring those that the 
U.S. military believes no longer require detention to either their home 
or to third countries.
  transfers of guantanamo detainees to the united states have already 
                                occurred
    It might surprise many on this committee--and certainly any close 
observer of the political debate surrounding closing Guantanamo--to 
learn that it was a Republican President that first ordered the 
transfer of a Guantanamo detainee into the United States. Yassir Hamdi 
was transferred from Guantanamo in April 2002, first to the Naval 
Station at Norfolk, Virginia and then to the Consolidated Naval Brig at 
the Charleston Naval Base. Hamdi remained in the Brig in Charleston for 
2\1/2\ years before he was repatriated to Saudi Arabia. During his 
detention, the U.S. Supreme Court ruled that his detention was legal 
under the law of war.
    According to the Bush administration, Hamdi was captured in 
Afghanistan in 2001 fighting with the Taliban and was initially sent to 
the Mazar e Sharif prison where he was accused of participating in the 
notorious prison uprising that killed American Johnny Span. In February 
2002, the Bush administration sent Hamdi to Guantanamo Bay.
    Hamdi arrived in South Carolina in the middle of campaign season 
during a particularly intense election for Governor. The incumbent 
Democratic Governor Jim Hodges was being challenged by then-former Rep. 
Mark Sanford. There is no evidence in the public record that the 
presence of a Guantanamo detainee in Charleston ever featured in any 
way in that gubernatorial election campaign. There is no record of Gov. 
Hodges ever writing or speaking to the Bush administration or to 
Congress about any threat posed to the residents of South Carolina by 
Hamdi from inside the Charleston Naval Brig. Nor is there any public 
comment by Rep. Sanford on the issue either. Sanford eventually won a 
close election 53% to 47% for Hodges.
    The other instance of a Guantanamo detainee being transferred into 
the United States was not greeted with equal indifference by the 
political system. Ahmed Ghailani was indicted in December 1998, along 
with a number of other co-conspirators, for his role in the bombings of 
2 U.S. embassies in East Africa earlier that year that killed more than 
200. He was captured in 2004 in Pakistan and arrived at Guantanamo in 
2006. It is unclear where he was held in the intervening period, but he 
was one of the individuals the Bush administration admitted was held in 
undisclosed locations by the CIA.
    Ghailani was transferred to New York in June 2009. That same month, 
Congress voted for the first time in the prison's then 7-year history, 
and after more than 500 detainees had been transferred out of 
Guantanamo by the Bush administration to locations that included the 
United States, to impose restrictions on transferring detainees out of 
Guantanamo. An absolute prohibition on transferring Guantanamo 
detainees to the United States was narrowly-defeated that year in the 
House of Representatives. But Ghailani would be the only Guantanamo 
detainee brought to the United States by the Obama administration 
before that transfer ban was imposed by Congress beginning in 2011.
    Despite the political furor surrounding Ghailani's transfer to the 
United States, he went on trial in New York City in 2010 for his role 
in the embassy bombings. He was convicted of conspiracy in the attacks 
and sentenced to life in prison. He was sent to the Federal 
penitentiary at Florence, CO, also known as the Supermax, in June 2011 
where he has been for nearly 5 years. There is no evidence that there 
was any elevated threat to the residents of New York from 2009 to 2011 
because of Ghailani's presence during the trial, nor has there been any 
evidence that the residents of Colorado have been negatively impacted 
during his nearly 5 years at Supermax.
       terrorists held as military detainees in the united states
    In addition to Yassir Hamdi, 2 other accused al-Qaeda operatives 
were held in military detention inside the United States during the 
Bush administration. The first was Jose Padilla. He was captured in May 
2002 at Chicago's O'Hare International Airport upon arriving on a 
flight from Zurich and held in New York City as a material witness to 
an on-going criminal investigation.
    More than a month later, then-Attorney General John Ashcroft 
announced his detention, describing Padilla as ``a known terrorist who 
was exploring a plan to build and explode a radiological dispersion 
device, or `dirty bomb,' in the United States.'' Padilla, who is a U.S. 
citizen, was declared an enemy combatant and transferred on June 9, 
2002 to join Hamdi at the Charleston Naval Brig.
    Padilla was eventually transferred to Federal prison in Miami in 
2006, where he stood trial for terrorism charges unrelated to the dirty 
bomb plot. In 2008, he was convicted of conspiracy and first sentenced 
to serve 17 years in prison, later increased to 21 years. He is 
currently serving his sentence alongside Ghailani in the Supermax in 
Colorado.
    The second military detainee in the United States was Ali al-Marri. 
He was arrested in December 2001 in Illinois and charged with credit 
card fraud. He was in Federal prison awaiting trial on those charges 
when his case dramatically changed in 2003 when he was declared an 
enemy combatant by the Bush administration, accused of being an al-
Qaeda sleeper agent, and transferred to the Charleston Naval Brig. Al-
Marri's arrival brought the Charleston detainee population to 3.
    Al-Marri was charged with new terrorism offenses and returned to 
Federal prison upon President Obama taking office in 2009, when he pled 
guilty to providing material support for terrorism. He was sentenced to 
15 years in prison, including the 7 years he had served since his 
original arrest in 2001, a sentence he also served at Supermax. Al-
Marri was transferred to his native Qatar in 2015 with little attention 
paid to his case.
    As with the previous cases of Hamdi and Ghalani, there is no 
evidence that the residents of Illinois, New York, South Carolina, 
Florida, or Colorado were under any elevated threat because of the 
presence of Padilla or al-Marri in Federal or military prisons in their 
States.
suspected terrorists captured overseas and brought to the united states
    It has also been a regular feature of the criminal justice system 
during both the Bush and Obama administrations for suspected terrorists 
captured overseas to be brought to the United States for trial and 
incarceration.
    Aafia Siddique, a Pakistani national educated in the United States, 
was detained in Afghanistan in 2008. She was sent to a U.S. military 
base where, according to the Bush administration, she attempted to 
murder several U.S. military officers in an attempted escape. Siddique 
was wounded in her escape attempt, but she survived and was quickly 
transported to New York in September 2008 for trial. She was convicted 
of attempted murder in 2010 and sentenced to serve 86 years. Siddique 
is currently being held at the Federal Medical Center in Carswell, TX, 
a Federal prison for inmates with special health needs.
    Suliaman Abu Ghaith, Osama bin Laden's son-in-law and top 
spokesperson for al-Qaeda, was turned over to the United States in 2013 
after being detained by Jordanian authorities. Abu Ghaith is the 
highest-ranking al-Qaeda operative to stand trial in the United States, 
and he was convicted in a New York courtroom in 2014 for conspiracy to 
murder Americans and providing material support for terrorism. He was 
sentenced to life in prison and joins many other fellow international 
terrorists at Supermax in Colorado.
    Ahmed Abu Khatallah is accused of being the ringleader of the 
attack on the U.S. diplomatic compound in Benghazi that killed 4 
Americans. He was captured in a joint FBI-U.S. military operation in 
Libya in June 2014 and quickly transported off-shore to a U.S. navy 
ship. On-board that ship, Khatallah was interrogated for several weeks 
before his transfer to the United States in July 2014.
    Even though that attack has prompted intense political debate, the 
detention of Abu Khatallah in Federal prison first in Washington, DC 
and then in northern Virginia while he awaits trial in Federal court 
has attracted absolutely no attention or controversy. He has been less 
than 10 miles from the United States Capitol in an Alexandria prison 
cell for nearly 2 years.
    There is no evidence that the residents of New York, Texas, 
Colorado, Washington, DC, Virginia, or the U.S. Representatives, 
Senators, their staffs, or the other employees who work at the United 
States Capitol have been under any elevated threat because of the 
presence of Aafia Siddique, Sulaiman Abu Ghaith, or Ahmed Abu Khatallah 
in Federal prisons in their vicinity.
             other high-profile terrorists in u.s. prisons
    The list of extremely dangerous terrorists currently held at 
Supermax in Florence reads like a rogues gallery of international 
terrorism. The man who first tried to bring down the World Trade Center 
in 1993, Ramzi Youssef, and his co-conspirators, Mahmud Abdouhalima, 
Mohamed Salameh, and Eyad Ismoli, were captured in 1995 and have been 
serving multiple life sentences in Supermax since their 1997 conviction 
in a New York City court.
    Ahmed Ghailani's co-conspirators, Wadih el-Hage, Mohamad al-Owhali, 
Mohammed Odeh, Khalid al-Fawwaz, were arrested in 1998, prosecuted in a 
New York courtroom in a trial that began in 1999, and convicted in 2001 
for their roles in the 1998 embassy bombings. All are at the Supermax. 
Ahmed Ressam, the al-Qaeda terrorist who was planning to attack Los 
Angeles International Airport on New Year's Eve 1999, but was captured 
at the U.S. border with Canada, is also held there. He was convicted in 
Federal court in Los Angeles in 2000, where he is serving a 37-year 
sentence.
    So is Zacarias Moussaoui, who was originally believed to be the 
missing 20th hijacker in the 9/11 attacks. He was arrested by the FBI 
in Minnesota in 2001 and prosecuted in a Federal court in Alexandria, 
the same location as Abu Khatallah. Moussaoui pled guilty but the 
sentencing phase of his trial dragged on and he ended up spending more 
than 5 years in Virginia before he was sent to Supermax in 2006 to 
serve a life sentence.
    The 2 perpetrators of attacks on airplanes that have come the 
closest to success since 9/11 are there too. It is home to Richard 
Reid, the British citizen who tried to blow up a U.S.-bound airliner 
using explosives hidden in his shoes in 2001. He plead guilty in 
Federal court in Boston and was sentenced to 3 life terms in 2002. More 
recently, Umar Farook Abdulmutallab, the Nigerian who attempted to 
destroy another U.S.-bound plane on Christmas day in 2009 with a bomb 
built into his underwear. He pled guilty in Federal court in Detroit 
and was sentenced to 4 consecutive life sentences.
    Just as with the above-referenced cases, there is no evidence that 
the residents of New York, California, Minnesota, Virginia, 
Massachusetts, Michigan, or Colorado were or are under any elevated 
threat because of the presence of these terrorists in prisons in their 
States.
     guantanamo detainees won't be released into the united states
    Some concerns have been raised that bringing Guantanamo detainees 
into the United States would lead to their release from custody into 
the United States by increasing the rights afforded them. However, 
there is no chance that a Guantanamo detainee would be released into 
the United States under current law.
    First, it is important to recognize that the number of detainees 
that could possibly be brought to the United States under President 
Obama's plan is quite small, likely around 3 dozen. These detainees 
will have had their cases reviewed in 2009 by the task force 
established by the Obama administration to examine the case of every 
detainee at Guantanamo, and are likely to have had at least 1 Periodic 
Review Board hearing. In each of those instances, the detainee would 
have been approved for continued law of war detention, or in addition 
to that status potential prosecution in Federal court or the military 
commissions. Therefore, the detainees likely to be transferred to the 
United States under this plan are the ones who present the most 
compelling cases for continued detention.
    Should a Guantanamo detainee be brought to the United States to 
stand trial, while a conviction is by far the most likely result, it is 
possible that such a trial could end in acquittal--we don't do show 
trials in the United States. If a former Guantanamo detainee is 
acquitted, he could still be held by the military as a law of war 
detainee. If this, or any other among this last group of Guantanamo 
detainees, were able to win a habeas corpus case that he should no 
longer be held as a law of war detainee, that will not result in order 
for his release from custody. Rather, it would mean the court would 
order him transferred out of the United States and he would remain in 
custody until that happens.
    Additional questions have been raised regarding the extremely 
remote possibility that a law of war detainee is ordered to be 
transferred out of U.S. custody over the objections of the Executive 
branch, but no country would be willing to accept him and there is no 
basis to bring charges in Federal court. The Obama administration 
included as an appendix to its plan to close Guantanamo a formal report 
to Congress it prepared addressing these very issues. Its conclusion is 
the same as mine, that no matter what the difference is between the 
rights afforded to the detainees in the United States versus those at 
Guantanamo, no detainee will be released into the United States.
                               conclusion
    American Federal prisons and military detention facilities have 
held and currently hold some of the most dangerous terrorists the world 
has ever known. This is a testament to the success of our law 
enforcement and National security officials in keeping Americans safe, 
not an indication of an unacceptable level of threat affecting 
Americans on a daily basis. I am confident that the American criminal 
justice system and U.S. military detention facilities can safely and 
securely imprison any Guantanamo detainees that are sent to U.S. soil.

    Mr. Perry. The Chair thanks the gentleman.
    The Chair now recognizes Mr. Thompson for his statement.

STATEMENT OF TODD THOMPSON, COUNTY ATTORNEY, LEAVENWORTH COUNTY 
         ATTORNEY'S OFFICE, LEAVENWORTH COUNTY, KANSAS

    Mr. Thompson. Chairman Perry, esteemed subcommittee, I 
would like to first thank our veterans as well as those that 
have worked in Guantanamo Bay.
    Also, I would like to thank our law enforcement officers 
and particularly Representative Jenkins for giving me this 
opportunity to speak today.
    Today, I speak on behalf of Leavenworth, and I thank you 
for that opportunity. I speak to the President's desire to 
close Guantanamo Bay detention facility, and the impact it 
would have on communities, particularly Leavenworth.
    Today, I want to focus on issues of concern: First, the 
lack of communication by the Department of Defense and the 
Obama administration; second, I would like to talk about the 
security implications for the Kansas City Metro area and to the 
detainees if they were transferred there; and third, I would 
like to talk about the implications to the mission of Fort 
Leavenworth.
    As county attorney, I am the chief law enforcement officer, 
and I am tasked with prosecuting criminal offenses and 
protecting the safety and welfare of the community. It is 
always important to me to have as much information as possible 
in making any decision regarding the community's safety.
    The Department of Defense has done a site survey for Fort 
Leavenworth, but it has failed to share any of the information 
with any of the local officials. Without this information, my 
community has no way to prepare for the economic burden or the 
potential threats it may receive from housing any detainees 
from Guantanamo Bay.
    Fresh memories of the attacks of San Bernardino, Paris, and 
Brussels demand that communities remain on guard for terrorist 
threats. If the detainees were placed in Leavenworth, it would 
make our community a high-priority target.
    In 1997, Mohammed Salameh, a convicted perpetrator of the 
1993 World Trade Center bombing, was housed in a Leavenworth 
penitentiary. The prison became a terrorist target and received 
several letter bombs. Our own law enforcement, as well as 
National law enforcement, had to expend significant resources 
to respond to this threat. To build a new facility in Fort 
Leavenworth, it would cost $91 million and take 3 years, and 
that is comparison from the previous facility that was built 10 
years ago.
    Paul Lewis, the Department of Defense special envoy for the 
closure of Guantanamo Bay, has said that any facility for 
housing the detainees would require adequate medical 
facilities. Fort Leavenworth does not have these such 
facilities. The closest facilities are at the University of 
Kansas Medical Center, which is roughly 45 minutes away.
    Beyond the economic concerns, there would be significant 
safety concerns if the detainees needed to be transferred there 
for their care. Further, the current facilities have roadways 
that are less than a chip shot away from the Fort's border. 
There is a railroad that carries hazardous materials only a few 
hundred yards away. If that railroad had to shut down, that 
would cost our community $1 million of revenue a day.
    There is an airport within the vicinity of the facility 
shared by my community. That would be rendered useless if a no-
fly zone were required, such as the one that Guantanamo Bay has 
now. The Missouri River is adjacent to Fort Leavenworth, and 
can allow access to the Fort. If it becomes necessary to 
fortify the Fort's borders, land belonging to the families that 
surround that area who have owned it before Kansas was even a 
State would have to lose that land to eminent domain.
    Leavenworth County is currently home to over 75,000 
residents. Because Fort Leavenworth is there, there are 
approximately 20,000 veterans residing in and around the 
Leavenworth community area, and many of those have served in 
Afghanistan and in Iraq. Some of them suffer from PTSD as well 
as serious physical injuries from their tours of service.
    Gold Star families live in that community, have loved ones 
buried near, yards away from the disciplinary barracks. Beyond 
the economic concerns, what does putting the detainees in Fort 
Leavenworth say to the veterans and those families? How would 
this affect these people psychologically?
    Finally, Fort Leavenworth has the Command and General Staff 
College. It is the premier college for the National/
international officers. Generals Bradley and Powell, and 
President Eisenhower were among the attendees. Our officers as 
well as international officers bring their families to our 
community, which is a significant economic benefit to the area.
    President Obama wants Guantanamo Bay closed, in part, 
because of the impact of our relationships with our allies. The 
placement of detainees in Fort Leavenworth may cause these 
families, or even the international officers themselves, to not 
attend the college. The impact of losing the relationships with 
these international officers could have a long-term effect on 
our foreign relations.
    Putting it frankly, and from a friend of mine, placing the 
detainees in Fort Leavenworth would be similar to building a 
prison in Harvard Yard.
    Mr. Chairman, I look forward to answering questions from 
you and the committee.
    [The prepared statement of Mr. Thompson follows:]
                  Prepared Statement of Todd Thompson
                             April 28, 2016
    Chairman Perry and Members of the committee: On behalf of the 
citizens of Leavenworth County, thank you for the opportunity to 
present to this committee testimony regarding President Obama's 
continued desire to close the detention center at the Guantanamo Bay 
Naval Station. Executive Order 13492, issued January 22, 2009 ordered 
the closure of the detention center at the Guantanamo Bay Naval Station 
in Cuba. As with the most recent plan promulgated by the Department of 
Defense in December 2015, it's quite apparent we lack a clear-cut 
course of action and are ill-prepared and ill-equipped to safely and 
effectively execute a plan that has been kept hidden to the individuals 
and communities responsible for executing the operation.
    As the elected county attorney for Leavenworth County, I am the 
chief law enforcement officer. I am responsible for prosecuting 
criminal offenses committed in violation of State law. This is an 
important task that the community both expects and deserves. This 
becomes somewhat of a balancing act, as there are limited resources 
available to my office that I must carefully allocate to discharge this 
duty.
    The key issues of concern include a lack of communication from the 
Department of Defense or the President's administration, the drastic 
change to the core mission of Ft. Leavenworth, and the security 
implications for the Kansas City Metropolitan Area as a result of the 
transfer of detainees to the Disciplinary Barracks at Ft. Leavenworth.
                         lack of communication
    One issue that has arisen in the Leavenworth community has been the 
lack of communication with our State, local, and military officials. 
The most important asset that I can have for any part of my job is the 
availability of pertinent information upon which to base my decision. 
At this late date, we have no clear-cut idea what the expectations of 
our community will be if the Guantanamo Bay detainees were placed here. 
We are unaware how many detainees President Obama's will request to be 
brought to the United States. As we are led to believe, there are 80 
detainees currently held at Guantanamo Bay. That is including 44 
detainees that are not recommended for transfer because they are too 
dangerous, even for their home countries.
    These detainees are not a homogeneous group. We know they are high-
value detainees, serious detainees never to be released, and detainees 
from places like Yemen who do not have a home to return to at the 
moment, among others. This lack of communication causes serious issues 
regarding how we as a community are to thwart any pending threats and 
how much of our limited resources we would need to expend in dealing 
with those threats.
    The Department of Defense conducted a site survey recently, but 
failed to speak with local officials regarding their objectives or 
methodology. I believe that military commanders must know those 
objectives and I believe that they were made aware. However, city and 
county officials were left out of the conversation and thus, we were 
not provided the information needed to best serve our community or 
successfully execute this mission.
    This lack of communication will come into play when a citizen or 
citizens bring a suit against one or more governmental entities. In 
that case, I will be called upon to collect and disseminate information 
in a timely manner to the correct official. Without knowing who, when, 
why, and how these detainees may be transferred, I will not be able to 
accomplish that task and discharge my sworn duty as the county 
attorney. Even if this entire plan for transfer is out of the realm of 
possibility from a legal and legislative standpoint, I ask that the 
citizens of Leavenworth be kept informed and that we are become 
included in the communications between the Department of Defense and 
the Ft. Leavenworth commanders so that I may serve the people to the 
best of my ability and so that the citizens may make an informed and 
reasonable decision about their lives in Leavenworth County.
               change in core mission at ft. leavenworth
    Ft. Leavenworth is the site of the newly-created Army University, 
which includes the historic and prestigious Command and General Staff 
College. The mission at Ft. Leavenworth is to educate and train 
military commanders in current and future tactics and leadership.
    Not only is the Command and General Staff College open to American 
Army officers, but it is also used by many allied nations' commanders. 
They send their best and brightest commanders to learn our Army's 
tactics and gain insight into how the best Army in the world conducts 
itself in wartime. This collaboration serves another purpose: It also 
strengthens our relationships with those participating nations. Many of 
the nations that send their commanders to Ft. Leavenworth are Muslim 
nations. By collaborating with our Army, we strengthen our relationship 
with them and enable us to project our values and decency to that part 
of the world.
    In the event of a transfer of detainees to Ft. Leavenworth, many of 
these same allies have already announced that they would cease sending 
their commanders to learn and train at Ft. Leavenworth. One may ask, 
who will these countries turn to for training? The answer may very well 
be Russia.
    The reason they come to Ft. Leavenworth to learn with our 
commanders is that our Army is of the size and capability necessary to 
portray any type of scenario. Our CGSC instructors have seen all types 
of battles and training techniques and they are able to relate their 
experiences to any commander from any size military force. The only 
other nation currently able to do that may be Russia. It is a large and 
capable military that has many experienced commanders. With that, it 
also has the desire to supplant the U.S. Army's place in the world and 
may try to do so by forming educational relationships with our former 
partners' commanders.
                            security issues
    In today's society, law enforcement and communities must take into 
consideration a terroristic threat, whether real or perceived. As the 
9/11 Commission stated, ``[t]he most important failure was one of the 
imagination.'' Incidents ranging from the 2015 San Bernardino attack to 
the 2015 attack in Paris or 2016 attack in Brussels cause communities 
to be frightened of a similar attack occurring in their community. 
President Obama, among others, has said that the rationale for the 
closure of the Guantanamo Bay detainment facilities is due to the 
symbolism the facility represents. This would give good cause to a 
like-minded individual or person(s) seeking attention to try a similar 
attack. An example of this has already occurred in Leavenworth in 1997. 
In 1993, terrorists bombed the World Trade Center towers in New York 
City and 1 of the 4 people responsible for the attack, Muhammed 
Salameh, was housed at the United States Penitentiary, only 5 miles 
south of the Disciplinary Barracks at Ft. Leavenworth. In 1997 the 
Penitentiary received several letter bombs that were designed to injure 
and kill people housing terrorists. Local and Federal resources were 
able to prevent any harm from occurring. The placement of these 
detainees from Guantanamo Bay has the real potential to bring harm to 
any community wherein they may be placed. Not simply because there will 
be more of them in one facility together, but because these detainees 
are exponentially more dangerous.
    While Ft. Leavenworth is fully confident in its ability to contain 
the detainees now housed at Guantanamo Bay Naval Base at their 
facilities, they do have serious factors that need considered. At the 
present moment there is not a specific facility for the detainees. Ten 
years ago, Ft. Leavenworth erected a new facility that took 3 years and 
$90 million to build. The understanding we currently have is that we do 
not have time to build another structure, therefore we would have to 
use an existing facility and move the prisoners currently housed there 
to another location. Our facility is approximately 300 feet from County 
Road 155 and 250 feet from Coffin Road. At this distance, it would be 
extremely hard to stop a vehicle IED, or car bomb from being set off, 
as well as someone getting close enough to assist in an escape.
    A railroad runs near the prison and through our community that 
often carries hazardous materials. A terrorist attack on the railroad 
would directly threaten our civilian population as well as citizens to 
our east in the State of Missouri. The railroad runs directly next to 
Sherman Army Airfield, which is used by civilians and the military on a 
frequent basis. It would most likely have to be shuttered and those 
pilots, crew, and passengers would have to find another point of entry 
into Leavenworth and the Fort.
    Ft. Leavenworth and Leavenworth County are also adjacent to the 
Missouri River. A threat could easily use the river to gain access to 
the Ft. Leavenworth Disciplinary Barracks as well as to target the 
civilian population of our community.
    Ft. Leavenworth would also need to strengthen the border around the 
perimeter for extra protection. This would include creating a buffer 
zone much wider than the current 2-lane road outside the prison 
perimeter. If the road was to be expanded and land needed for a larger 
buffer zone, many families would lose their farms and livelihoods to 
eminent domain. The resources that would be needed is dependent on an 
unknown assessment at this time.
    The other concern for the Ft. Leavenworth prison is the lack of 
adequate health care for the detainees, which is one of the key issues 
Paul Lewis of the Department of Defense says, is necessary for a 
transfer of detainees to the United States. Ft. Leavenworth does not 
have a proper facility to meet the medical or dental needs of any 
detainee. If detainees would need these services it would be necessary 
for them to be taken off the Base and to a local facility. The closest 
capable hospitals are University of Kansas Medical Center in Kansas 
City, KS and Truman Medical Center in Kansas City, MO. This would 
necessitate increased protection and transportation to a non-secure 
area for the detainee for an unspecified amount of time depending on 
the extent of their health care needs. The alternative would be the 
expense of building a new facility, with all the needed staff and 
equipment, to satisfy this potential issue. There is also the question 
of would the Mayor of Kansas City, MO or Kansas City, KS even allow 
this to occur in their cities?
    Once again, thank you Chairman Perry and Members of the committee. 
I am honored to present testimony to you regarding the impact a 
transfer of detainees from the Detention Center at Guantanamo Bay Naval 
Station to the Disciplinary Barracks at Ft. Leavenworth will have on 
our city, county, region and the Fort itself. I welcome your questions 
and look forward to providing insightful answers. Thank you.

    Mr. Perry. The Chair thanks Mr. Thompson.
    The Chair now recognizes himself for 5 minutes of 
questioning.
    Sheriff Bouchard, can you just reiterate--I started writing 
it down, but I missed the unreimbursed cost regarding San 
Bernardino. I think you mentioned that. Can you recount that 
figure for us in the subcommittee?
    Sheriff Bouchard. Yes. He had told us it was $350,000 right 
off the bat in unreimbursed overtime, and $19 million have been 
expended by the locals on the totality of the situation.
    Mr. Perry. Three-hundred fifty-thousand dollars overtime 
and $19 million in unexpected cost to the local government. As 
I recall, you said unreimbursed cost, right?
    Sheriff Bouchard. Yes, sir.
    Mr. Perry. So the Federal Government hasn't come back in, 
after the fact, and taken care of that bill. It is the local 
community that bears the burden of the cost associated with the 
terrorist attack that some in the room have said that all 
agencies are prepared to handle and deal with at any time.
    We understand that law enforcement does every single thing 
it can, but we understand that we are all human and you can't--
they only have to be right one time, right? So everybody--I 
guess what we are saying, is that every community has to be 
prepared for $350,000 in overtime minimum and potentially up to 
$19 million in costs due to some terrorist-related attack, 
whether there is a prison housing detainees in your community 
or not, right?
    Sheriff Bouchard. Yes, sir.
    Mr. Perry. Okay. Thank you.
    Mr. Gude, first of all, I don't owe anybody an apology.
    I would ask you, have you ever taken the oath of office to 
wear the Nation's uniform?
    Mr. Gude. No.
    Mr. Perry. Then how would you have any idea of the 
requirements hoisted upon individuals that take that oath and 
things that are said? I will tell you that I have taken the 
oath, and every single officer that has taken the oath, every 
single officer, Mr. Gude, understands what I was saying. What I 
said was, ours is not to question why. We serve at the pleasure 
of the Commander-in-Chief, period. Period. We offer our 
opinions.
    However, once the Commander-in-Chief gives the order, our 
job is to salute and move out. If you knew that, if you ever 
took the oath, if you ever wore the uniform, if you ever 
served, you would know that.
    Mr. Gude. So you are saying that they are giving a bad----
    Mr. Perry. Mr. Gude, I think I answered your statement, 
okay. Like I said, moving on.
    How often have you read the National Security Strategy or 
the National Military Strategy?
    Microphone, please.
    Mr. Gude. Apologies. I have frequently read the National 
Security Strategy.
    Mr. Perry. Frequently. What is frequently?
    Mr. Gude. Many times. It is part of my job.
    Mr. Perry. It is part of your job. Many times. Because it 
is an evolving document that changes administration by 
administration, do you update yourself? You know that the 
strategy isn't always updated to concur with current events and 
evolving events, right?
    Mr. Gude. I believe the National Security Strategy has been 
updated 2 times in this administration.
    Mr. Perry. Right. You have read both, right?
    Mr. Gude. Yes.
    Mr. Perry. The National Military Strategy as well?
    Mr. Gude. The QDDR. Is that what you are referring to?
    Mr. Perry. Yes.
    Mr. Gude. Yes.
    Mr. Perry. Okay. What background do you have? What 
professional background do you have other than working at this 
center for 13 years now? What professional background, 
training, et cetera, do you have in law enforcement, in the 
military, in National strategic studies, what have you? What 
background do you have other than working at this location?
    Mr. Gude. I have been in a professional National security 
policy space for more than 15 years. I have not served in the 
military.
    Mr. Perry. What does that mean as a professional? What does 
that mean? You work there, but what training do you have?
    Mr. Gude. I have been following these issues, and I am 
deeply involved in them.
    Mr. Perry. Many Americans have as well, but they don't come 
before Congress and testify with their opinions based on they 
have been following these issues for--many Americans are very 
concerned. But I am asking, do you have any law enforcement 
training?
    Mr. Gude. No.
    Mr. Perry. Military training?
    Mr. Gude. No.
    Mr. Perry. Diplomatic training?
    Mr. Gude. I don't know what that is, but no.
    Mr. Perry. Okay. Well, there is diplomatic corps and they 
receive training. I mean, I am just asking----
    Mr. Gude. I have not served in the Government, if that is 
what you are asking me.
    Mr. Perry. Right. So you are elucidating your opinions on 
these subjects. But I will remind you, and I am looking at your 
own testimony here, that you say, ``For these reasons, a long 
bipartisan list of senior Government and National security 
figures do not believe Guantanamo advances U.S. National 
security interests.''
    Well, I can tell you that there is a whole lot of people 
that serve in this place that have worn the uniform, who have 
training, whether law enforcement, whether it is National 
security, whether in the diplomatic corps that disagree.
    So with all due respect, while I appreciate your opinion--
and many of us do, and we asked you here for your alternative 
opinion--it is your opinion. Quite honestly, I am not sure it 
is an informed opinion, but it is an opinion, and we appreciate 
that.
    Let me ask you this: I spoke with some folks recently in a 
hearing on a similar subject, Special Envoy for Guantanamo 
Closure and the Defense Special Envoy for Guantanamo Detention 
Closure, both of those individuals cited numerous things like 
you do about it is a magnet for recruiting, Guantanamo is, and 
that it hurts our National security, it costs us a lot of money 
to have it there.
    I ask, what empirical data do you have to support that? 
What empirical data do you have to support the claim that 
moving these individuals to South Carolina, to Kansas, or 
anywhere in Continental United States will have any difference, 
will make any difference? These individuals could provide me no 
empirical data or studies on cost or otherwise. Can you provide 
any at this time?
    Mr. Gude. One of the most famous cases in--during the Bush 
administration, there was an interrogator, a military 
interrogator from Iraq who reported that at the time, the No. 1 
recruitment tool that al-Qaeda in Iraq was using to draw 
individuals into their ranks was the existence of Guantanamo 
Bay, and it was clear, and it was persuasive, and it persuaded 
not people just like me but people like Colin Powell, people 
like Jim Baker, people like the President of the United States, 
George W. Bush, John McCain.
    Now, you can impugn my credentials all you want, but I 
think you will have a harder time impugning their credentials.
    Mr. Perry. I am in the business of questioning everything, 
including my party, because it is National security. National 
security, sir, comes before everything. With all due respect, I 
am not necessarily interested so much in the opinions of a 
terrorist and not only a terrorist, but only one terrorist. Oh, 
by the way, I don't understand and nor have you told me how it 
makes a difference whether it is in Guantanamo or South 
Carolina. What is the difference? Can you tell me that? Is 
there a difference?
    Mr. Gude. Guantanamo is a symbol of the torture and abuse 
that occurred during the Bush administration at that prison and 
at other prisons. It is not simply associated with--propaganda 
against Guantanamo is not simply associated with the fact that 
there are military detainees there. There is absolutely nothing 
wrong with that. There was no propaganda associated with the 
Charleston Naval Brig when Yasser Hamdi was there.
    Mr. Perry. So when we move all these prisoners to South 
Carolina, and then--the propaganda moves to South Carolina, I 
guess that would then justify and validate the Governor's 
concerns about----
    Mr. Gude. I don't know that there is any evidence that the 
propaganda was----
    Mr. Perry. Do you have any evidence to the contrary?
    Mr. Gude. Yes. There was no propaganda associated with the 
Charleston Naval Brig.
    Mr. Perry. Were all the detainees in Charleston, South 
Carolina?
    Mr. Gude. There were 3 detainees.
    Mr. Perry. Three, but I am talking about all. All of them, 
all in one location, all the focus of international terrorism 
and Islamists such as they are in Guantanamo.
    Mr. Gude. I understand this is your opinion that that would 
follow, but I am talking about the evidence.
    Mr. Perry. It is not my opinion. I am asking if you have 
any evidence?
    Mr. Gude. I have no--there is no evidence.
    Mr. Perry. Thank you.
    Mr. Gude. There is no evidence.
    Mr. Perry. Thank you.
    At this point, I yield to the gentleman, Mr. Richmond.
    Mr. Richmond. Based on history--because you can only use 
history to predict the future--based on history, when South 
Carolina contained and held 3, was any propaganda targeted at 
South Carolina, Charleston?
    Mr. Gude. No.
    Mr. Richmond. Thank you.
    Now, Sheriff, you mentioned in your testimony--and I am 
just trying to relate all this together--that the lack of 
military equipment, the 1033 program causes some concern for 
housing detainees?
    Sheriff Bouchard. It causes concern relative to the 
preparedness level and the understanding of the threat and the 
situations we deal with on a daily basis. That causes us great 
concern, because we believe a lot of the decisions made by the 
administration, be it 1033 or otherwise, is focused on 
perception, not reality.
    Mr. Richmond. So you think it was perception that some of 
our police forces were being militarized and that they were 
using armored vehicles running through urban neighborhoods?
    Sheriff Bouchard. I am saying that the perception that has 
been fostered that an armored vehicle makes us militarized, in 
essence, is wrong. That an armored vehicle that pulls up at a 
bank or a grocery store every day to protect money, when that 
bank or grocery store is being held up, and a police vehicle 
shows up with the same armored vehicle, somehow it is scary or 
militarized, is false. It is there for the same reason: To 
protect people.
    Mr. Richmond. I understand, but we have tanks going through 
urban neighborhoods.
    Sheriff Bouchard. We have no tanks, sir. There are no tanks 
in police inventory in America. There is only armored vehicles 
with no weaponized--that is one of the false perceptions. There 
is no tank in police custody in America. Armored personnel 
carriers, big safe boxes without weapons, sir.
    Mr. Richmond. Well, we are just going to agree to disagree 
on that. As my sheriffs and police advocate for things, I think 
that one of the things, especially in the petrochemical 
industry, that is one of the things that my sheriffs ask for. 
But I am just trying to figure out how we made that connection.
    You also say that there is a high recidivism rate with 
Guantanamo prisoners. What is the recidivism rate? I mean, who 
was released, and how often do they recommit a crime?
    Sheriff Bouchard. There has been a number of studies. The 
most recent one that I read, there was a 30 percent recidivism 
of Guantanamo detainees returning to the battlefield.
    Mr. Gude. Can I jump in on that one?
    Mr. Richmond. Sure.
    But what is the recidivism rate at the largest prison under 
your jurisdiction?
    Sheriff Bouchard. It depends on the crime. But there is a 
fundamental difference, and I would like to answer that point 
because there tends to be----
    Mr. Richmond. No, but let me ask the question, because I 
was a State rep, I was on the Judiciary Committee, and 
everybody knows the general recidivism rate of their prisons. 
So what is your general recidivism rate?
    Sheriff Bouchard. Well, first of all, sheriffs don't run 
the State prisons, so I can't quote you the recidivism rate. 
But my point that I wish to answer----
    Mr. Richmond. You run a local one. Wouldn't you run a local 
one, a local jail?
    Sheriff Bouchard. I do run, in fact, a jail. It depends on 
the crime, but typically it runs from 30 to 60, maybe 70 
percent, depending on the crime.
    Mr. Richmond. Okay. Mr. Gude, you wanted to interject 
something?
    Mr. Gude. Yes, these figures, I think, must be properly 
assessed by breaking them down between the detainees that were 
released from Guantanamo during the Bush administration, and 
the detainees that were released from Guantanamo under the 
Obama administration.
    That is because the Obama administration implemented a 
substantial process for determining whether or not it was 
appropriate to release the detainees, any individual detainee. 
Now, in order to be released, that needs the unanimous decision 
of 6 senior National security officials, and then it also 
further requires the Secretary of Defense to certify that the 
security arrangements associated with the individual's transfer 
help keep Americans safe.
    What we have learned is that this process has worked. 
Ninety-four percent of the detainees who have been either 
confirmed or suspected of rejoining the fight were released 
during the Bush administration. A tiny number of the detainees 
that have been accused of or confirmed of rejoining this fight 
were released under the Obama administration.
    Mr. Richmond. Mr. Thompson, let me--look, this is a very 
difficult subject. I understand being an elected official, and 
I think all of the witnesses on the Republican side are 
elected, and with elected office, there comes a different 
responsibility. But let me ask you a question: Would you just 
be in favor of closing the Bureau of Prisons facility we have 
at Leavenworth now?
    Mr. Thompson. No, I would not be in favor of closing the 
facility. That removes revenue from our economy. But I can say 
in talking to officials and retired officials from Fort 
Leavenworth, the detainees coming from Guantanamo Bay would 
cause a very serious concern. Those are much different than 
detainees we already house at Fort Leavenworth.
    Mr. Richmond. Right, because it is more--well, I guess, 
middle or minimum security?
    Mr. Thompson. Correct.
    Mr. Richmond. So you are okay with the economic development 
and the jobs that are created by housing minimum-security 
prisons, but you just don't want to go to maximum or a few 
detainees or several detainees from Guantanamo?
    Mr. Thompson. I am Leavenworth. I mean, we know----
    Mr. Richmond. I mean in Leavenworth.
    Mr. Thompson. I mean, we are known for prisons. We are 
known for being able to hold and house prisoners.
    Mr. Richmond. Exactly.
    Mr. Thompson. But these prisoners are much different than 
any of the others that we see or have seen. They are 80 of the 
worst that we know of. There is a specific reason why they are 
at Guantanamo Bay, and we would not want them in Fort 
Leavenworth or Leavenworth for the effects it would have on our 
community and on our citizens. Not even the economic concern--
well, including the economic concerns, but primarily, the 
psychological concerns it would have to all our veterans, our 
Gold Star family members, and anyone else out there.
    If I could also address Mr. Gude, who is talking about the 
symbolism of Guantanamo Bay and the reason for its closure. 
That symbolism was something that President Obama has used to 
argue that it should be closed, but that is not going to 
dissipate with it being closed. That is going to stay with it. 
We don't forget about 9/11 even though there are structures 
that are now built over where the Twin Towers have fallen. We 
are going to continue to have to have that burden, and we are 
going to have to worry about that threat.
    I would also reiterate that Mr. Gude's own statements, or 
written statements in January 2016 said that symbolism is 
fading.
    Mr. Perry. The Chair thanks the gentleman.
    The Chair now recognizes Mr. Duncan from South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman.
    Mr. Gude, what year was the 9/11 attacks on New York?
    Mr. Gude. That was 2001.
    Mr. Duncan. You were talking about Charleston Naval Brig 
holding detainees terrorists. What year was that?
    Mr. Gude. Two-thousand two through 2009.
    Mr. Duncan. Okay. Thank you.
    What year was the Department of Homeland Security stood up?
    Mr. Gude. Two-thousand two.
    Mr. Duncan. Two-thousand three.
    Mr. Gude. Two-thousand three.
    Mr. Duncan. What year was this committee formed?
    Mr. Gude. Two-thousand four.
    Mr. Duncan. Okay. So what I am showing is this has been a 
fluid process. We were attacked. We had to begin prosecuting a 
war against those that attacked us. When we captured enemy 
combatants on the battlefield, we had to figure out what to do 
with them, correct?
    Mr. Gude. Yes.
    Mr. Duncan. The homeland had to figure out how we are going 
to respond to terrorism attacks on our soil. We combined 22 
agencies. We created a brand new committee within the halls of 
Congress to continually talk about security of the homeland; 
hence, we have got this hearing talking about security of the 
homeland.
    For your information, the recidivism rate or the number of 
detainees that return to the battlefield is about 30 percent. 
It doesn't matter whether they were released by the Bush 
administration or the Obama administration.
    How many terrorists shot up the Chattanooga recruitment 
station?
    Mr. Gude. I believe it was 1.
    Mr. Duncan. One. One. It only takes 1 to kill a large 
number of Americans somewhere in the world, whether that is 
U.S. soil or somewhere else. Whether they are released by Bush 
or released by Obama, it only takes 1 to commit heinous acts of 
terror against Americans.
    So we know that the DOD study said about 30 percent of 
those released, regardless of who released them, have returned 
to the battlefield. I would argue that American lives have been 
lost because of them returning to the battlefield. So your 
argument that Bush released more and more returned to the 
battlefield just doesn't hold water, because it only takes 1 of 
the terrorists to do that.
    Mr. Thompson----
    Mr. Thompson. Yes, sir.
    Mr. Duncan [continuing]. You heard Governor Haley talk 
about DOD doing a site assessment at Charleston Naval Brig. We 
know that in August, they did a site assessment there at Fort 
Leavenworth. What kind of communication have they had with you?
    Mr. Thompson. Representative Duncan, they have had no 
conversation with myself, and they have had no or little 
conversation with any of our cities, local or law enforcement, 
or officials.
    Mr. Duncan. Nor State officials based on the Governor's 
testimony, because she and Governor Brownback had sent a letter 
asking, right?
    Mr. Thompson. Correct. There has been no communication. We 
have no idea. There are 80 detainees that potentially could be 
coming. We don't know which of those 80 are coming. There is 26 
set for release, but cannot be released because they don't have 
a home country. There are 44 that cannot be released at all, 
and then there are the 10 or 7 that are being prosecuted and 3 
are being convicted. Are we getting the 7? Are we getting the 
3? Are we getting the 44? Are we getting the 26? We don't know.
    How can we even feasibly understand what type of threat any 
one of those people could bring to our community? What we would 
have to do is strengthen our border around Fort Leavenworth, 
increase our law enforcement costs, increase our safety? We 
have no idea because we are not being talked to. That is one of 
the things I would want and I would want for our community, or 
any community that would look at having these detainees.
    Mr. Duncan. Exactly.
    Have any of you gentlemen visited the prison at Guantanamo 
Bay?
    Mr. Gude. No.
    Mr. Thompson. No.
    Sheriff Bouchard. No.
    Mr. Duncan. Mr. Thompson, I have. You heard the Chairman 
say he just recently did. I think you have been down there more 
than once.
    In 2001, 2002, when we started catching enemy combatants, 
they took them to Guantanamo Bay. You see a lot of pictures. 
TIME magazine loves to show a picture of these outdoor 
facilities of people cooking and detainees being in a fenced-in 
area. But since 2002, we have built some pretty substantial 
prisons, facilities there. There is a medium security. There is 
a low-security area. I don't think there are any prisoners in 
the low-security area anymore. There is medium security, and 
there is a maximum security.
    Medium security is probably like the prison in your county, 
community rooms, cell blocks off of those. They have the 
ability to cook their own food, do their own laundry, 
participate in crafts. They are still incarcerated, but it is 
much like what you see in counties and State facilities.
    Then there is a maximum-security facility. These prisoners, 
these terrorists held in the maximum security, Khalid Sheikh 
Mohammed, has no contact with any other prisoner. He has his 
own room, a cell. He is monitored 24/7, 365 by the security 
team that can watch his every movement while he is in that 
cell.
    They are Muslim. They have to have the ability to pray. 
There are compound areas outside of their cell where they can 
go out and get some fresh air connected to their cell, not a 
community area for exercise. So they can go there. They don't 
have any contact with any other prisoner. There are some 
special circumstances holding Muslim terrorists that want to 
harm America, and a special prison facility has been built on 
Guantanamo Bay just for that purpose.
    In addition, there is a courtroom facility built in 
Guantanamo Bay at taxpayer expense for trying convicted 
terrorists, or captured terrorists, rather, at Guantanamo Bay. 
So they have access, secure access to their legal counsel so 
that they can't escape the courtroom. All this is in place.
    If they came to the Naval Brig in Charleston, or to Fort 
Leavenworth, I do believe that it is going to cost the taxpayer 
additional resources to create or recreate what we already have 
at Guantanamo Bay to house these very special prisoners.
    Are you set up the same way Guantanamo Bay is, based on my 
description of those cell blocks?
    Mr. Thompson. We are not set up for that. Like I said, at 
this time, we would have to build a new facility. That new 
facility would take at least 3 years, and I am using a 
comparison from what Fort Leavenworth had told me it would have 
took to build their most recent facility, and that was 10 years 
ago. So those funds of $91 million might be up to $100 million, 
$120 million.
    Mr. Duncan. Mr. Thompson, is DOD coming up with these plans 
right now, because they are not having any conversations----
    Mr. Thompson. No.
    Mr. Duncan [continuing]. With you about what your needs 
are?
    So are they doing this unilaterally, figuring out, well, we 
are going to go to Fort Leavenworth, and we are going to build 
a brand-new prison, and this is what it is going to look like, 
these are facilities it is going to have. Wouldn't they talk to 
you because you have got to run the doggone place?
    Mr. Thompson. Well, you know, I have no clearance to be 
able to talk to the Fort or the military officials on official 
duty, so I have no idea what they are discussing. I can tell 
you that I have looked at the map of Fort Leavenworth, and I 
have been told where the idea would be. There is a Boy Scout 
and Girl Scout camp in this center. There is no water. There is 
no electricity to connect to that area, much less having to 
build it.
    There are not the facility or capabilities to be able to 
house them at this time. I am also told that the Guantanamo Bay 
detainees are generally, especially if they are maximum, have 
to have almost specialized security for one-in, one-out 
watching over them.
    Mr. Duncan. So if we have got to build all these new 
facilities, why are we looking at existing facilities? Why 
don't we go down to Louisiana and go out into the high ground 
in the Bayou and build a brand new facility? Why not go to Fort 
A.P. Hill right down the road here, thousands upon thousands of 
undeveloped acres, and drop a prison facility there? Why aren't 
we talking about Fort Leavenworth or Charleston if we are 
talking about this?
    Mr. Thompson. Well, I would say that----
    Mr. Duncan. It is interesting when you bring that closer to 
home, I do believe.
    Mr. Thompson. Well, I would say that if they were--I mean, 
Guantanamo Bay, they are away from harming any other citizens, 
and that is one of the most serious concerns that we have about 
bringing them to the United States soil.
    Mr. Duncan. Absolutely.
    Mr. Thompson. To bring them into a community such as 
Governor Haley's Charleston, or bringing them to something like 
Fort Leavenworth where there are communities of veterans as 
well as just citizens like myself living there, that is going 
to cause them undue threat concern, economic impacts, social 
impacts, psychological impact, all these things just by moving 
them here.
    Mr. Duncan. Absolutely. Thank you.
    Mr. Perry. The gentleman's time has long expired.
    The gentleman now recognizes the Ranking Member.
    Mr. Richmond. Mr. Chairman, I would just like to add that 
there is no high ground in the Bayou. It is all----
    Mr. Perry. That is a good point.
    Mr. Duncan. I have been to some high ground in the Bayou, 
so anyway, thank you for that.
    Mr. Perry. All right. The Chair thanks the witnesses for 
their very valuable testimony, for being here today, and the 
Members for their questions.
    The Members may have some additional questions for the 
witnesses, and we ask you to respond to these in writing. 
Pursuant to the committee rule 7(e), the hearing record will 
remain open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 12:01 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

      Questions From Chairman Scott Perry for Michael J. Bouchard
    Question 1. Please describe the typical role that State and local 
law enforcement plays in responding to an incident at a military 
installation. Would you expect the role to be the same in responding to 
an installation that houses the Guantanamo detainees?
    Answer. Law enforcement is the first group to respond to areas in 
times of emergency, with the great responsibility to act quickly and 
effectively in times of terror and uncertainty. Securing the homeland 
cannot be an afterthought--law enforcement regularly and proactively 
prepares for the unthinkable and as the threat picture and nature of 
violence has evolved, so too has local law enforcement. Enemy 
combatants and foreign fighters bring a whole extra list of concerns. 
They are more often directly connected with terrorist networks and hold 
a higher value individually and symbolically. Any protest outside the 
gate--for or against, any attack on the facility or escape from the 
facility would fall on the local agencies. Local communities where 
these facilities are located might become a symbolic target. Local 
agencies would necessarily have to equip, train, and prepare for these 
issues. All, without any consideration or compensation from the Federal 
Government. Additionally, I think it is important to note that while 
jails and prisons do hold a great number of very dangerous criminals, a 
terrorist is not and should not be considered to have the same security 
concerns.
    Question 2a. It is likely that any facility holding Guantanamo 
detainees would become a terrorist target. Furthermore, State and local 
law enforcement would be responsible for securing the area ``outside 
the fence'' of the installation where these detainees were located.
    What concerns do State and local law enforcement have related to 
terrorist's ability to ``go dark'' in order to plan attacks?
    Question 2b. How can these concerns be ameliorated?
    Answer. Law enforcement officials' ability to lawfully access 
digital evidence has been severely hamstrung by technological 
advancements and non-technological barriers to access. We in the law 
enforcement community find ourselves in a new age where criminals and 
terrorists enthusiastically operate beyond the confines of the law 
through encrypted networks, applications, and mobile devices. The 
encrypted applications used for preplanning and coordination among the 
Paris attackers may have prevented the advance detection of the 
attacks, but the cell phone of one of the terrorists recovered outside 
the Bataclan theater helped investigators apprehend the ringleader of 
the attack, Abdelhamid Abaaoud. When law enforcement officials 
identified Abaaoud's cousin in the phone's call list and her location, 
Abaaoud was finally located.\1\ It was later confirmed that Abaaoud 
died in the detonation of a suicide bomb during the raid.
---------------------------------------------------------------------------
    \1\ http://www.nytimes.com/2016/03/20/world/europe/a-view-of-isiss-
evolution-in-new-details-of-paris-attacks.html.
---------------------------------------------------------------------------
     Various proposals have been offered to find a ``solution'' to the 
going dark debate. MCSA endorsed the Compliance with Court Orders Act 
of 2016 as introduced by Senators Burr and Feinstein as well as 
Chairman McCaul and Senator Warner's Digital Security Commission Act of 
2016. As the Compliance with Court Orders Act clearly states, no person 
or entity is above the law. Whether law enforcement is investigating 
child exploitation, drug trafficking, rape or homicide cases, officers 
need access to critical, time-sensitive information in order to do 
their jobs.
    MCSA believes the Digital Security Commission Act of 2016 is a 
positive step towards thoroughly examining all aspects of the going 
dark debate and while MCSA is supportive of the commission concept, we 
remain concerned about several provisions related to stakeholder 
representation and vote threshold. Nevertheless, the time has come for 
all segments--tech, privacy, and law enforcement--to elevate the 
conversation and work together in the interest of public safety and 
privacy. Advancing the Compliance with Court Orders Act of 2016 and/or 
the Digital Security Commission Act of 2016 would be step in the right 
direction towards ameliorating LE's concerns.
    Question 3. Please provide some examples of past coordination 
between State and local law enforcement and the administration. Why do 
you believe the administration neglected to coordinate with State and 
local law enforcement during the development of this plan?
    Answer. I have assigned personnel to Joint Terrorism Task Forces 
and to key counter terrorism facilities in Washington, DC at great 
expense to my local taxpayers. We do so because coordination and 
information sharing was a critical recommendation of the 9/11 
Commission. We all want to protect our homeland. Many of our MCSA 
members devote both personnel and resources to these JTTFs without 
Federal reimbursement.
    Far too often local law enforcement is not consulted ahead of 
policy decisions that have direct and potentially dire implications for 
our communities. At no single point has the administration requested 
local law enforcement's perspective or opinion on the transfer of Gitmo 
detainees to U.S. soil. One could presume the administration's constant 
exclusion of LE is based upon the reality that LE's perspective does 
not fit their narrative. MCSA has always sought be a positive source of 
ideas and collaboration and finds it unacceptable that we do not have a 
seat at the table.
    Question 4. In its fiscal year 2017 budget request, the 
administration made significant cuts to grant funding, especially those 
utilized by State and local law enforcement. Please describe the 
importance of Federal grants to State and local law enforcement 
agencies. How would the proposed cut in grants affect State and local 
law enforcement's ability to deal with any additional responsibilities 
brought on by the presence of Guantanamo detainees in the homeland?
    Answer. With an increased threat environment, law enforcement has 
continually been tasked to do more with less. Cost implications coupled 
with a heightened security environment is simply unsustainable. In an 
era of deep budget cuts and lack of Federal funding, State and local 
law enforcement does not have the necessary funds, and most recently 
the necessary life-saving equipment, to adequately address the National 
security implications associated with Gitmo detainees being housed 
within U.S. facilities.
    Grant programs such as the State Homeland Security Grant Program 
(SHSP) and the Urban Areas Security Initiative (UASI) work to address 
gaps in local agencies capabilities for responding to terrorist 
threats. Other programs such as the Edward Byrne Memorial Justice 
Assistance Grant Program (JAG) have a broader focus of providing 
critical funding to support a range of different program areas. Over 
the past few fiscal years, law enforcement has seen a steady decline in 
Federal grant funding and most recently, President Obama's fiscal year 
2017 budget request cut UASI funds by 45 percent. The amount of monies 
we receive for these new and evolving threats is a trickle at best.
    The Law Enforcement Support Office (LESO) military surplus and 
Federal grant programs are examples of a good partnership between the 
Federal Government and local government entities. It is fiscally 
responsible and assists in equipping our Nation's law enforcement with 
equipment that saves lives. In areas of our Nation that are fiscally 
stressed, it is potentially the only way their law enforcement officers 
would ever receive that type of support. The transfer of equipment from 
Federal inventory saves taxpayers a significant amount of money, simply 
because Federal surplus items have already been purchased once. In 
fact, many of the same items that they receive through Federal 
assistance programs have been used by law enforcement agencies for 
decades.
    Through Executive Action and not legislation, the administration 
has recalled certain 1033-controlled military surplus equipment. While 
the ultimate goals of law enforcement remain the same: To protect the 
public; to solve, deter, and respond to criminal acts; and to enforce 
the law in a responsible and Constitutional manner, the administration 
has sought to inappropriately legislate through perception at the cost 
of public safety. On the very same day as the San Bernardino terror 
attack--our Nation's worst attack since 9/11--my office received an 
order to return our armored personnel carrier back to the Federal 
Government. The recall of certain types of controlled equipment will 
undoubtedly leave America's law enforcement less prepared and at a 
disadvantage to protect local communities against terror attacks and 
dangerous situations.
    Guantanamo detainees housed in U.S. facilities would require an 
exorbitant amount of resources from State and local law enforcement 
agencies. Resources ranging from manpower associated with hospital 
watch, medical and/or court transfers, to a coordinated escapee and 
riot response plans. Local law enforcement would also be tasked with 
preparing and responding to any protestors or sympathizers outside of 
the facility gates and into our local communities. When an emergency 
arises, Federal officials and the military are not the first to 
respond--local law enforcement are and as such, need to be adequately 
prepared to properly address the situation at hand. That means both a 
significant investment in planning, training, and equipment by the 
affected local jurisdictions. Some have lauded the closure of Gitmo as 
a cost-saving measure, but that is most assuredly short-sighted--both 
from a National security and taxpayer perspective. Additionally, with 
the recent efforts to transfer detainees to other countries the 
argument that so few are left it only makes sense to close the base is 
neither subtle nor supported.

                                 [all]
</pre></body></html>
